<html>
<title> - THE FUTURE OF THE FAMILY FARM: THE EFFECT OF PROPOSED DOL REGULATIONS ON SMALL BUSINESS PRODUCERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 THE FUTURE OF THE FAMILY FARM: THE EFFECT OF PROPOSED DOL REGULATIONS 
                      ON SMALL BUSINESS PRODUCERS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                            FEBRUARY 2, 2012

                               __________

                               [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               

            Small Business Committee Document Number 112-051
              Available via the GPO Website: www.fdsys.gov


                  U.S. GOVERNMENT PRINTING OFFICE
76-459                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="accbdcc3eccfd9dfd8c4c9c0dc82cfc3c182">[email&#160;protected]</a>  


                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                       ROSCOE BARTLETT, Maryland
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                      CHUCK FLEISCHMANN, Tennessee
                         JEFF LANDRY, Louisiana
                   JAIME HERRERA BEUTLER, Washington
                          ALLEN WEST, Florida
                     RENEE ELLMERS, North Carolina
                          JOE WALSH, Illinois
                       LOU BARLETTA, Pennsylvania
                        RICHARD HANNA, New York

               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        MARK CRITZ, Pennsylvania
                      JASON ALTMIRE, Pennsylvania
                        YVEITE CLARKE, New York
                          JUDY CHU, California
                     DAVID CICILLINE, Rhode Island
                       CEDRIC RICHMOND, Louisiana
                         GARY PETERS, Michigan
                          BILL OWENS, New York
                      BILL KEATING, Massachusetts

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Tipton, Hon. Scott...............................................     1
Critz, Hon. Mark.................................................     2

                               WITNESSES

Nancy J. Leppink, Deputy Administrator Wage and Hour Division, 
  U.S. Department of Labor Washington, DC........................     3
Ms. Chris Chinn, Owner, Chinn Hog Farm, Clarence, MO.............    25
Mr. Kent Schescke, Director of Strategic Partnerships, National 
  Future Farmers of America, Alexandria, VA......................    27
Mr. Bob Tabb, Deputy Commissioner, West Virginia State Department 
  of Agriculture, Charleston, WV.................................    29
Mr. Rick Ebert, Vice President, Pennsylvania Farm Bureau, 
  Blairsville, PA................................................    31

                                APPENDIX

Prepared Statements:
    Nancy J. Leppink, Deputy Administrator Wage and Hour 
      Division, U.S. Department of Labor Washington, DC..........     4
    Ms. Chris Chinn, Owner, Chinn Hog Farm, Clarence, MO.........    26
    Mr. Kent Schescke, Director of Strategic Partnerships, 
      National Future Farmers of America, Alexandria, VA.........    28
    Mr. Bob Tabb, Deputy Commissioner, West Virginia State 
      Department of Agriculture, Charleston, WV..................    30
    Mr. Rick Ebert, Vice President, Pennsylvania Farm Bureau, 
      Blairsville, PA............................................    31
Additional Materials for the Record:
    U.S. Department of Labor Wage and Hour Division Fact Sheet...    81
    National Children's Center 2011 Fact Sheet...................    90
    The National Association of State Departments of Agriculture 
      Letter for the Record......................................    92
    Letter to Rep. Tipton and Rep. Critz from Rep. Cleaver.......    94
    U.S. Department of Labor Wage and Hour Division Letter for 
      the Record.................................................    96
    ``Pricey Tractors Not Earning Keep on Small, Local Farms,'' 
      Heather Scofield, Durango Herald...........................   123
    Statement of the Child Labor Coalition on Proposed Hazardous 
      Occupations Orders.........................................   126
    Testimony Submitted by the Association of Farmworker 
      Opportunity Programs.......................................   137
    Letter to Secretary Solis....................................   140
    American Farm Bureau Federation Comments on DOL Regulations 
      Governing Agricultural Employment of Youth.................   142


 THE FUTURE OF THE FAMILY FARM: THE EFFECT OF PROPOSED DOL REGULATIONS 
                      ON SMALL BUSINESS PRODUCERS

                              ----------                              


                       THURSDAY, FEBRUARY 2, 2012

                  House of Representatives,
          Committee on Small Business, Subcommittee
                          on Agriculture, Energy and Trade,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2360, Rayburn House Office Building. Hon. Scott Tipton 
[chairman of the subcommittee] presiding.
    Present: Representatives Tipton, Bartlett, King, Schilling, 
Rehberg, Critz, Chu.
    Chairman Tipton. The hearing is called to order.
    I would like to thank our witness for appearing today. The 
purpose of today's hearing is to examine proposed regulations 
by the U.S. Department of Labor pertaining to the employment of 
youth on farms and ranches. Like other sectors of the economy, 
farming and ranching have experienced profound changes over the 
years. The combination of mechanization, biotechnology, and the 
use of more specialized fertilizers has allowed farmers to grow 
more food using less land than at any time in history. While 
these new technologies and methods have brought significant 
change to agriculture, the need to educate and train the next 
generation of farmers remains as important today as it was 
nearly 100 years ago. It has often been said but needs 
repeating here, farming is a profession learned by doing. And 
while school-based instruction is important, it can teach you a 
great deal but there is no substitute for actual on-farm ranch 
experience.
    While I am pleased by DOL's announcement yesterday that it 
was going to resubmit the parental exemption portion of the 
NPRM, other provisions of this rule will still make it 
difficult if not impossible for youths interested in careers in 
agriculture to access comprehensive on-farm education and 
employment opportunities. I think we can all agree that hazards 
are present in agriculture and ensuring the safety of youth is 
a common goal. At the same time, through proper safety training 
and supervision those hazards can be eliminated or at least 
minimized.
    We are fortunate to have with us today stakeholders 
involved in that process. They and their families have been 
involved in agriculture for generations and I think they will 
bring an important perspective to the Committee's discussions.
    Before I yield to Ranking Member Critz for his opening 
statement I would like to welcome our colleague, Representative 
Dennis Rehberg from the state of Montana. While he does not 
serve on the Small Business Committee, Denny is a fifth 
generation rancher and he has asked to be here today because 
this issue is so important to his constituents back home, just 
as it is to many of my own constituents.
    I now yield to Ranking Member Critz for his opening 
statement.
    Mr. Critz. Thank you, Mr. Chairman.
    Across America, farming is not just a source of food but a 
way of life. In my home state of Pennsylvania there are more 
than 63,000 farms and more than 90 percent are family-owned and 
operated. This means that while they bring food to the nation's 
table, they are also an essential ingredient to rural economies 
driving employment, innovation, and the quality of life.
    Making sure that this remains so is a top priority of mine. 
Central to family farming is the notion that children and local 
youths can participate in the agricultural way of life. For 
many this may mean milking cows, cultivating a field or 
repairing a barn. The skills and the responsibility these 
adolescents receive at such a young age help them become 
trustworthy and hardworking adults. Instilling such values is 
just as much a part of the family farm as is harvesting crops.
    In this regard, farmers have always prioritized health and 
safety in their fields and silos. Doing so not only safeguards 
their very own families but is also unnecessary if they want to 
be successful. With this in mind it is unfortunate that the 
Department of Labor's proposed regulation on child labor and 
agriculture could undermine much of what makes family farms so 
special. If enacted the rule would equate agricultural labor 
with non-agricultural labor, something that makes no sense to 
anyone that has ever stepped foot in a rural community. Until 
yesterday the most concerning part of the regulation was the 
narrowness in how DOL defines family farm.
    While it is promising that the Agency has decided to 
repropose this portion of the rule, work still needs to be 
done. The matter at hand concerns the parental exemption from 
the regulation. Current law provides an exclusion for farms 
owned by a parent. This has generally been interpreted to 
include arrangements where the parent has an ownership 
interest, such as a partnership or a corporation. Such 
instances are fairly common among family farms as multi-
generational families, including grandparents, uncles, and 
aunts, may operate one entity instead of several. This is no 
trivial matter as Pennsylvania alone has nearly 5,000 family-
held corporations and partnerships. Reproposing this aspect of 
the rule is a step in the right direction, and if done 
properly, will ensure that children can continue to work on the 
very family-owned farms as the generations before them have 
done.
    In rural communities, farms are also centers of learning. 
In many areas of agriculture, hands-on experience is critical. 
No longer will 14- and 15-year-old children be able to readily 
participate in many aspects of farming operations, potentially 
shortchanging their careers. This change is ironic because 
during a period of high unemployment, particularly in rural 
communities, we should be expanding vocational education 
opportunities, not restricting them.
    At the center of the rule are changes to DOL's hazardous 
occupation orders. These orders provide the limits on what 
tasks adolescents can perform on a farm. While unchanged since 
1970, a review is reasonable. However, in several instances the 
Department of Labor has gone too far. Prohibiting children 
under 16 from using power-driven machinery, whether self-
propelled or not, could restrict their access to nearly all 
aspects of farming such as harvesting crops, repair work, or 
raising animals. Such a ban would be a real burden on farmers, 
who often rely on local youth to fill many jobs. Similarly, 
broad terminology is used to prohibit work in storage 
facilities and on construction projects. This would mean silos 
but could also mean barns, which are used to store hay or 
animals.
    While the intent may be appropriate, in practice it will 
end up limiting youth employment in historically non-hazardous 
and educational fields. Together the DOL's rules are a step 
back for family farmers and the communities they support. The 
reality is that farms are unique operations, and with this 
comes a wide range of tasks that you would not see in retail, 
restaurant or office.
    We have to be mindful of these differences and not simply 
regulate it as we would any other industry. Breaking the 
intergenerational bond among family farmers and increasing red 
tape on them is a risky proposition. In the end it could 
ultimately result in lower employment in rural areas and even 
higher food prices across the country. Family-owned farms are a 
critical part of America, putting dinner on the table, but also 
serving as a lynchpin for so many of our communities. As a key 
provider of jobs in education, they are central to our economy 
and we need to give them the tools and resources they need to 
succeed rather than burden them with more red tape.
    I want to thank all the witnesses for traveling here today, 
and I look forward to their testimony. Thank you and I yield 
back.
    Chairman Tipton. Thank you, Congressman Critz.
    If Committee members have an opening statement prepared I 
would ask that they submit it for the record.

STATEMENT OF NANCY LEPPINK, DEPUTY ADMINISTRATOR, WAGE AND HOUR 
                 DIVISION, DEPARTMENT OF LABOR

    Chairman Tipton. I would like to take a moment to explain 
our timing lights for Ms. Leppink. You will have five minutes 
to be able to deliver your testimony. The light will start out 
as green. When you have one minute remaining the light will 
turn yellow, and finally it will turn red at the end of your 
five minutes. And I will ask that you try and limit your time 
but I will be lenient, of course, to be able to allow you to 
finish.
    Our first witness today is Ms. Nancy Leppink. She currently 
serves as deputy administrator of DOL's Wage and Hour Division. 
Am I pronouncing your name correctly?
    Ms. Leppink. Close enough.
    Chairman Tipton. Close enough. Okay.
    Prior to joining the Department of Labor in 2009 she worked 
for 24 years for the state of Minnesota, working for both the 
state attorney general and the State Department of Labor and 
Industry.
    Ms. Leppink, you may deliver your testimony. And thank you 
for being here.

                   STATEMENT OF NANCY LEPPINK

    Ms. Leppink. Good morning, Chairman Tipton, Ranking Member 
Critz, and members of the Subcommittee. Thank you for the 
invitation to testify at this hearing.
    Mr. Chairman, the Department of Labor recognizes the 
importance of youth employment and the value of agricultural 
work and respects the role of parents in raising their 
children. We welcome the dialogue with this Committee and want 
to ensure that the views of the agriculture community as a 
whole are fully considered. This is evidenced by the fact that 
after receiving a number of comments from stakeholders on the 
need to provide the Department with further input on the 
parental exemption, the Department announced yesterday that it 
would repropose the parental exemption portion of its recent 
Notice of Proposed Rulemaking on children in agriculture.
    Since it was passed in 1938, the Fair Labor Standards Act 
has included child labor protections because Congress 
recognized that when children are employed they should be 
employed under conditions that do not put them in harm's way. 
The agricultural child labor provisions of the FLSA only apply 
to youth under the age of 16. Moreover, the statutes of child 
labor provisions include a parental exemption that applies to 
children who are employed by their parents on a family farm 
that is owned or operated by those parents.
    One of the highest priorities of the Secretary of Labor has 
been and continues to be the prevention of the death and injury 
of children as a result of their employment in hazardous 
occupations. Children serving as employees in agriculture 
businesses are among the most vulnerable of our nation's 
workers. The fatality rate for young agriculture employees is 
four times greater than that of their peers employed in 
nonagricultural workplaces. The injuries suffered by children 
employed in agriculture also tend to be more severe.
    Unfortunately, even with the current laws on the books 
there are employers who continue to illegally hire and employ 
children to work in hazardous jobs in agriculture businesses. 
Child farm employees are still killed or injured on the job and 
one child injured or killed is one too many. It is also not 
uncommon for the Wage and Hour Division to find young children 
working illegally in the fields exposed to numerous hazards 
including pesticides and dangerous equipment.
    In an effort to ensure we protect and keep working children 
safe while not limiting their opportunities to be employed in 
positive work experiences, the Department of Labor has for a 
number of years been reviewing the Federal Child Labor 
Regulations. The current Federal Agricultural Child Labor Rules 
were issued over 40 years ago and have never been updated or 
revised. The hazardous occupation orders that are in the 
proposed rule only apply to children who are age 15 and younger 
and serving as employees on a farm not owned or operated by 
their parent or person standing in the place of the parent, and 
only limits them from performing the most hazardous jobs. The 
Department's proposed rule also only applies to situations 
where there is an employment relationship. In other words, a 
child of any age could, for example, assist a neighbor in need 
to round up loose cattle that have broken out of their fencing 
because that would not establish an employment relationship. 
And even if an employment relationship is established, a child 
could still help a neighbor with work, such as hand harvesting 
crops, detasseling corn, and many other tasks. Nor would the 
regulations apply to situations where a child is raising a pig 
as part of a 4-H project or taking that pig that she has raised 
to sell at a county fair or market.
    Most of the proposed rules in the NPRM update update the 
hazardous occupation orders that limit the agriculture 
employment of youth under the age of 16 unless the parental 
exemption applies. The NPRM proposes to mend those orders. 
Among other things, prohibit child farm employees who are 15 
years old and younger from operating most power-driven 
equipment, including tractors and other hazardous farm 
implements. However, a bona fide student learner who is 14 and 
15 would still be permitted to operate these types of equipment 
when they are enrolled in a vocational education program such 
as those offered by a state or local educational authority. The 
proposed rule would not eliminate safety programs that are 
provided by organizations such as 4-H and the FFA. We fully 
support the important contributions these organizations make.
    The proposed rule would also create a new nonagricultural 
hazardous occupational order that would prohibit employing 
children under the age of 18 from all work performed in 
conjunction with storing, marketing, and transporting farm 
product materials. In the last two years the Department has 
investigated the deaths or serious injury of six young workers 
in this industry. Under the proposed rule children 17 years old 
and younger would be prohibited in nonagricultural employment 
from working in such establishments as grain elevators, silos, 
stockyards, and livestock exchanges.
    The notice and comment for this proposed rule has allowed 
for significant and robust comments from all of our 
stakeholders, including many members of Congress. The 
Department will carefully consider those comments as it 
develops a final rule. I thank you for the opportunity to 
testify today and I am happy to take your questions.
    Chairman Tipton. Thank you, Ms. Leppink. I appreciate your 
testimony and for appearing here today. And I think it 
certainly goes without saying, I know from my part of the 
world--I come from a rural area, ag communities--that we all 
want to make sure that our children are safe. However, I think 
that there are some concerns that recognize, and now that there 
seems to be a repositioning here by DOL in terms of submitting 
the ruling, you said it was going to be resubmitted for the 
parental exemption and input from agricultural producers played 
a significant part in this decision.
    I may have a couple of points to this but what sort of 
outreach did you do before the proposed rule was coming out? I 
think one of the great amounts of frustration which many of us 
who are not career politicians have is we see rules and 
regulations coming out without outreach and then we feel the 
impacts. What outreach was done before? And now what has 
changed so dramatically that now we are listening to the input?
    Ms. Leppink. Well, first of all, the whole purpose of a 
proposed rule and the opportunity for comment, which we 
extended for an additional 30 days, is, in fact, to get that 
input when the actual regulation is out in the public and 
people know exactly what it is that we are proposing. The whole 
idea of a notice and comment period is for us to--and we 
received 10,000 comments on this rule--is for us to be able to 
take in those comments and consider them and make sure that the 
rule takes them into consideration when it has become final. So 
therefore, the whole comment period--when we propose a rule it 
is by no means final. The rule is proposed for the very purpose 
of engaging the public in what that final rule will be.
    However, what we did prior to noticing the rule was 
actually this rule has been under consideration for a very long 
period of time. A GAO report was issued in the late '90s 
criticizing the Department for not having looked at these 
hazardous orders for a very long period of time. So we 
commissioned a study by the National Institute of Occupational 
Safety and Health to help us evaluate how things had changed in 
agriculture and what potential changes needed to be made in the 
hazardous orders. They issued their report in 2002. After that 
report was issued we engaged with the farm community, farm 
employers, advocacy groups and other academians and medical 
experts regarding what was put out in that report. And then 
basically nothing happened for several years. When this 
administration began, we began to look at that report because 
one of the objectives of the administration was to update and 
to look carefully at those hazardous orders to be certain that 
they were responsive to what was going on for children when 
they were working. We updated the non-ag rules and completed 
that rulemaking in May of 2010. So then when we completed that 
rulemaking we began the process of looking at the agricultural 
hazardous occupations. In that process we also brought in 
members of the community, including the National Council of 
Agricultural Employers and the American Farm Bureau to engage 
in a conversation about basically what was in that NIOSH report 
and the other subsequent feedback that we had received on those 
recommendations. And so it was with that input and the input of 
others that we then put out the proposed rule. We extended the 
Notice of Comment period an additional 30 days because we heard 
from Congress and others that additional time was important to 
ensure that all voices were heard.
    Chairman Tipton. Okay. Thank you.
    You know, I would like to point out this article I had from 
yesterday's Durango Herald, which is in my district. It is one 
of my local newspapers. In the article it states that for most 
farmers tractors no longer earn their keep. Basically, that 
over the lifespan of the tractor the food the tractor nets no 
longer nets enough money to be able to pay for the tractor 
before it needs to be replaced. Additionally, several other 
factors force farmers to have another full-time job. Given 
these circumstances folks are becoming more and more reluctant 
to take up farming as a career. I am fearful that the 
provisions in the original proposed rule only exacerbate this 
situation. Can you provide us with any certainty or a sense of 
hope that these farmers who are becoming more and more 
discouraged are going to be able to do something that I noted 
in my opening comments? Family farming is literally family 
farming.
    Ms. Leppink. I understand that. I grew up in a rural 
community in Minnesota. My father was a family doc. We moved to 
that community because of the values that community had. So I 
understand what it means to grow up in a small town.
    So what I want to make clear is that what we are not doing 
today, what we are not talking about today so that we can make 
sure that we are focused on what we really are talking about, 
we are not talking about kids who are 16 years and older who 
are employed on any farm, whether a family farm or a big 
corporate farm. We are not talking about farm kids who are 
working for their parents or a person standing in the place of 
the parent on a farm operated by that parent but maybe not 
owned or a farm owned by that parent. And now, as of the 
announcement yesterday, a farm substantially owned by that 
parent, so no longer requiring that it be wholly-owned by that 
parent.
    We are not talking about neighbors helping neighbors in 
need. We are not talking about kids participating in 4-H or 
FFA. We strongly support those programs.
    Chairman Tipton. If I could interrupt you just a little 
bit. When you are talking about in need, in my area we have 
grandparents, great grandparents, and the family farm. They may 
not be adjacent. We have neighbors and you say in need. I am 
not sure what in need actually means. And given the nature you 
said you grew up in a rural community. I was bucking bales when 
I was 12 years old, not effectively because they were 80-pound 
bales.
    Ms. Leppink. For your parents?
    Chairman Tipton. Huh?
    Ms. Leppink. For your parents?
    Chairman Tipton. No. No, it was actually for another farm.
    Ms. Leppink. Okay.
    Chairman Tipton. I was out and working. And great 
experience not only to be able to earn wages but to be able to 
learn a work ethic. My father felt that that was important for 
me.
    Ms. Leppink. Well, first of all, I do not think that the 
rule we are proposing would have precluded you from bucking 
hay.
    Chairman Tipton. I was earning a wage.
    Ms. Leppink. I know, but this regulation only focuses on 
the most hazardous occupations. So even if you are under 16 
there are many, many things that you can do on a farm. This 
does not outright prohibit kids from 15, 14, 13, 12, and 
younger, from working on a farm. It only focuses on those jobs 
that based on data, based on our enforcement experience, we 
have found results in the serious injury or the fatality of 
children. So bucking hay, I mean, to be honest with you I have 
not ever bucked hay but maybe you can describe it for me. But 
if what I understand it, that would not be prohibited by this 
rule.
    Chairman Tipton. Yeah. I did. Yeah. Actually, Congressman 
Critz pointed out we had a moving hay wagon in front. And I 
actually got to drive the tractor at 12.
    Ms. Leppink. Okay.
    Chairman Tipton. As well. And so part of the experience, I 
guess my point is that understanding, you know, you said you 
had reached out to the Farm Bureau. My Farm Bureau has talked 
to me. They want their children to be able to learn this value. 
And under the proposed rule of government is here to help and 
you have got to be involved in a voc-tech program if you are 
under 15 to be able to participate and be able to work with 
some of the mechanized equipment, is this not a heavy hand of 
government? We want to be able--I would submit that our parents 
and grandparents loved those kids. They wanted to be able to 
protect them. Do we need the federal government? Do we need 
OSHA stepping in to the workplace of the family farm to be able 
to deal with that?
    Ms. Leppink. Chairman, we have received significant 
comments on the very things that you are stating. That is one 
of the reasons why we made the decision to repropose the 
parental exemption because really what you are talking about, 
the opportunity to work for grandparents and aunts and uncles 
is exactly what the parental exemption is--what the 
conversation we are having about the parental exemption is 
about. And so consequently, one of the reasons that the Agency 
reproposed the parental exemption is so that we would be in a 
position to address the very issues and concerns that you are 
raising.
    Chairman Tipton. I guess I would like to move on. I want to 
make sure we get to our other panel members here as well. But 
can you explain the discrepancy for me between what the DOL 
states in its initial rule and what it has currently made 
publicly available?
    Ms. Leppink. Okay. The proposed rule set out what was the 
current enforcement practice of the Agency which our 
enforcement records indicate dates back to approximately 2002. 
The FOH that is on the website is out-of-date. When this rule 
was published we were in a comprehensive revision of that 
chapter in part because of outdated provisions like the 
parental exemption. But also because of the recent amendments 
to the Child Labor Regulation that went into effect in 2010.
    Chairman Tipton. When was that language changed?
    Ms. Leppink. When was the language changed?
    Chairman Tipton. Mm-hmm.
    Ms. Leppink. The language in the FOH is out-of-date. So it 
has not been changed. But the enforcement practice of requiring 
that the farm be wholly-owned began in 2002.
    Chairman Tipton. Okay.
    Ms. Leppink. At the latest.
    Chairman Tipton. Has this been enforced?
    Ms. Leppink. Yes.
    Chairman Tipton. Okay.
    Ms. Leppink. Yes. We have, I mean, we do not have regular 
bases, you know, in terms of family farms but we have--our 
enforcement data indicates that as early as 2002 the issue of 
whether the farm was wholly-owned or not for purposes of a 
citation was an issue.
    Chairman Tipton. Would it be possible to get that 
enforcement data from you?
    Ms. Leppink. Yes.
    Chairman Tipton. Okay. We would appreciate that.
    I will tell you what. I think what I would like to do is I 
am going to follow up, if you do not mind.
    Ms. Leppink. Sure.
    Chairman Tipton. I have got a number of questions and I do 
want to be able to get to some of our other members here so I 
will yield now to Ranking Member Critz for his questions.
    Mr. Critz. Thanks, Mr. Chairman.
    And for the record, so how do you say your last name?
    Ms. Leppink. Leppink.
    Mr. Critz. Leppink. Okay. See, mine is Critz and nobody can 
say it, so I figured we would get that out there.
    Yesterday the DOL decided to reopen the parental exemption 
to the rule. What prompted that?
    Ms. Leppink. What prompted it is the abundance of comments 
that we received and also, of course, the input from Congress, 
their concerns about what was being proposed. We felt that the 
rule would benefit from being reproposed and revised based on, 
the input that we had had. Plus, reproposing it allows for us 
now to engage further with interested parties. Of course, then, 
it will be published and put out for another round of notice 
and comments.
    Mr. Critz. Right.
    Ms. Leppink. So we want to get this right. And so 
consequently we felt that that was the best way for us to get 
it right.
    Mr. Critz. Well, I guess that leads to my next question, 
which is the current parental exemption standard must 
apparently be deficient. So what prompted this to be revisited?
    Ms. Leppink. Actually, it was not revisited. What the, I 
mean----
    Mr. Critz. It is being changed, so there must be something 
wrong with the way it is structured?
    Ms. Leppink. Actually, it was not being changed. What we 
were doing was we were putting out for comment how we had been 
enforcing the law. What this has allowed for then is for us to 
get the very input that we have gotten. You know, the farm 
community thinks that that definition is no longer in step with 
how family farms are currently structured. If we had not put it 
out there, there would have been no opportunity for the family 
farm to weigh in on how we were applying that exemption in our 
enforcement activity.
    So what this has allowed, you know, 10,000 comments later, 
what that has allowed is for us to do exactly what I think we 
as an agency should be doing, which is giving it our best shot, 
based on what we believe is the proper interpretation. We have 
given now the opportunity for the public to comment.
    Mr. Critz. Proper interpretation of?
    Ms. Leppink. The statute.
    Mr. Critz. Okay.
    Ms. Leppink. I mean, I have an obligation as the 
enforcement agency to apply the laws that are enacted by 
Congress.
    Mr. Critz. Right.
    Ms. Leppink. The parental exemption is a statutory 
provision. And so I have then the responsibility of going out 
and applying it in the real world. And so what that requires is 
often, you know, we have to interpret what Congress meant by 
wholly-owned and what Congress meant by operated. And so 
consequently, we indicated in the proposed rulemaking what we 
believed Congress meant. And as a result of the Notice of 
Proposed Rulemaking, we are hearing that agriculture has 
changed in the last 10 years and that there is a lot of 
different corporate structures. There is, you know, the family 
farm is not owned by the operator. There are all sorts of 
reasons including tax reasons that family farms have now 
entered into a variety of business structures.
    So the opportunity of this rulemaking now has allowed us to 
then, you know, the rulemaking process as is would have allowed 
us, if we had just simply gone forward, because we have gotten 
an incredible amount of comments and great comments. But what 
we are doing now is reproposing it so we will, you know, sort 
of yet have people have yet another chance for us to engage 
stakeholders and another round of comments based on what I 
imagine will be a revised proposal when we republish it.
    Mr. Critz. So it is possible that the outcome would be that 
the parental exemption will not change at all based on 
comments?
    Ms. Leppink. I mean, it is possible. I mean, anything is 
possible.
    Mr. Critz. Right.
    Ms. Leppink. But, the purpose of reproposing it is because 
we feel that we have gotten comments that we need to seriously 
consider. And consequently, the intent is to put out a revised 
proposal as quickly as we can.
    Mr. Critz. Okay. Just a couple more detailed questions. The 
rule applies to new prohibitions beginning at age 14, which are 
traditionally the first two years or the beginning of the first 
two years of an agricultural instruction program. A recent 
study showed, however, that 36 percent of first- and second-
year agricultural education students, 36 percent, were involved 
in some type of hands-on agricultural placement. So would this 
new rule prevent that, these types of placements for these 14- 
and 15-year-olds?
    Ms. Leppink. I know actually what the proposed rule does is 
it actually wants to tightly join both the education and 
training, in the classroom with the on-the-job training that 
kids would receive. And so the rule is not prohibiting kids 
from getting the training in addition to working on the job. 
You know, getting additional training or reinforcing the 
training that they are receiving in actual work.
    Mr. Critz. All right. So that is what I am trying to get my 
hands around. As the chairman asked about the voc-tech 
programs, are you changing the definition of the different 
types of ag programs that young people could work through and 
be eligible for? When you say tightening, I am trying to figure 
out what tightening means. Are there multiple programs now out 
there that would not be eligible for this type of----
    Ms. Leppink. There are certain programs that would not--
that may not meet the requirements that we are proposing. You 
are correct.
    Mr. Critz. Yeah.
    Ms. Leppink. So consequently----
    Mr. Critz. By not being eligible, does that mean that they 
would have an opportunity to adjust to meet new requirements?
    Ms. Leppink. Sure. In fact, we are already in conversations 
with the Department of Agriculture about how we can work on 
those educational programs together.
    Mr. Critz. Yes. I guess one of the things that is driving 
my concern about some of the things we are talking about is 
have child- or farm-related injuries among children seen an 
increase holding steady, or are we seeing a decline? As we are 
talking about child labor, and as the chairman was talking 
about--what did you call it? Not baling hay?
    Ms. Leppink. Bucking.
    Mr. Critz. Bucking hay. Bucking bales. At the age of 12--he 
was not on a family farm, but it was part of the culture of 
where he grew up that this was something that they did. So I am 
curious that revisiting, refining I guess you could say, or 
tightening of regulations. I am curious as to what we have seen 
in industry. Is this a problem that has been growing?
    Ms. Leppink. It is a problem that has been remaining 
steady.
    Mr. Critz. Steady? Okay. I think we have statistics that 
show that there has been a sharp decline in farm aid over the 
last 10 years. So I would disagree with that.
    Ms. Leppink. Okay. Mr. Critz, I would be curious to see 
what your statistics--what you are showing because ours are, 
according to the National Children's Center for Rural 
Agricultural Health and Safety, the rate of injuries per 
thousand household youth that are living on farms declined by 
48 percent from 1998 to 2009. Of the over 11 years from '98 to 
09, the ray of childhood agriculture per thousand farms 
includes youth who live on, visit, and are hard workers 
declined by 59 percent from 16.6 to 6.8.
    Ms. Leppink. Okay.
    Mr. Critz. So that is why I am of the mindset if it is not 
broke, do not fix it. Obviously as time goes on we sometimes 
get smarter or we realize that what we are doing could be done 
better, and certainly I support that.
    Ms. Leppink. I have spoken in error. We can provide the 
Committee with the studies that we were looking at when we 
promulgated the rule.
    Mr. Critz. Okay.
    Ms. Leppink. And so sometimes we are talking percent and 
sometimes we are talking numbers and I would probably feel more 
comfortable if we provided you with the data that we were 
relying on and the data that we have in the Agency.
    Mr. Critz. Okay. I lost it now but, you made a comment that 
I am probably going to revisit in a second round, but one last 
question. In most cases the Labor Department cites NIOSH as the 
reason a particular hazardous occupational rule is expanded. 
However, in the case of working with animals, the Department of 
Labor decided to ignore NIOSH's recommendation. Can you expand 
on why that is?
    Ms. Leppink. Well, we did not only rely on the 
recommendation of the NIOSH. We also relied on data that was 
provided by other entities, including medical experts and we 
also relied on our own enforcement experience in the proposal 
for this rule. And so consequently, that is in part--that NIOSH 
report then has been supplemented by the other additional 
information that we have acquired and have been provided since 
the NIOSH report came out in 2002.
    Mr. Critz. Okay. I was told that from all the 
investigations we have done, this is the only time that the 
NIOSH has not been used as the sole supplier of information. So 
if you have other examples that DOL has used something other 
than NIOSH's recommendation, we would certainly love to see it. 
Or, that they disagreed with NIOSH. This is something we need 
to look at if this is going to be the Department of Labor's 
standard operating procedure going forward; certainly something 
that we want to weigh in on and have a role in how it plays 
out.
    I know we have other members who want to ask questions, so 
I will yield back, Mr. Chairman.
    Chairman Tipton. Thank you, Congressman Critz.
    I would now like to recognize Congressman Rehberg for 
questioning. Thank you again for being here.
    Mr. Rehberg. Thank you, Mr. Chairman. And thank you Ranking 
Member Critz for the opportunity to sit at the dais.
    I am a fifth generation Montana rancher. Actually, my 
grand-grandfather was born in Montana in 1873, left home at 
nine and started breaking horses at For Assinibione at 11 in a 
paid capacity and lived to be 91. So you can, in fact, work as 
a young man, even back in the 1880s and survive.
    I have come to the conclusion in my 11 years in Congress 
that it is not necessarily a difference in philosophy between 
republicans and democrats. There is a difference in philosophy 
between urban and rural. And this is one of those situations 
where I think the Department of Labor is overstepping its 
boundaries, its knowledge base, and frankly, I think you are 
sitting around watching reruns of Blazing Saddles and that is 
your interpretation of what goes on in the West. And it is not 
anymore.
    Now, I have taken all the glamour out of my ranching 
operation because I do not rope and I do not tie and I do not 
brand with a hot iron. I use a self-catching head gate, I use a 
squeeze that is hydraulic, and I have a calf table. You cannot 
get hurt. It is impossible. You could have a 5-year-old out 
there running it. I have got kids that are working for me, my 
son's friends, who come out and help with self-starting 
generators that are run by propane which under your rule looks 
like will no longer be able to be used. We have a feed 
operation where we take the kids in the feedlot from the 
neighboring places and we pay them to move silage around or 
shovel manure. If it is a hard and fast rule that they cannot 
work in a feedlot or they cannot man a vaccination in a self-
catching head gate, that lacks common sense. I do not get it.
    Mr. Chairman, I can assure you as chairman of the 
Appropriations Subcommittee on Labor that you have not seen the 
last of this. I will have a rider on my appropriations bill 
that I write for the House of Representatives that will keep 
you from implementing this rule. It makes no sense. We want a 
safe work environment for our children and our neighbors' 
children.
    Let me ask you a question about herding. I had when I was 
elected to Congress 600 head of cashmere goats. My neighbor, 
who was the publisher of the largest newspaper in the state of 
Montana, wanted me to put his 10-year-old son to work. So I put 
him on a youth motorcycle, a little Kawasaki 60, and he herded 
goats for me on a daily basis. Now, would that be exempt under 
this rule or would he not be able to work for me as a 10-year-
old riding a youth motorcycle? As I understand it, herding is 
not allowed. It does not say anything about how the herding 
occurs. And with goats or sheep it is a constant. I mean, I 
also have.
    Ms. Leppink. The regulation does not say that herding is 
allowed.
    Mr. Rehberg. It says it is not allowed.
    Ms. Leppink. No, the regulation does not say that herding 
is not allowed.
    Mr. Rehberg. As I read the material it looked as if jumping 
on a horse and going out and herding cattle was not going to be 
allowed for those under 16.
    Ms. Leppink. You just added an element that could result, I 
mean----
    Mr. Rehberg. See, this is the problem because the 
Department of Labor does not know agriculture. It is a way of 
life. It is a lifestyle. Just because a 4-H student or FFA may 
have a show animal, but it is also how they learn. They might 
climb under a tractor with their neighbor just to learn the 
mechanics. And you do not learn this from a book. You do not 
need to go to a class. You learn it from your neighbors and 
your friends and your relatives. And I am just appalled. It 
really bugs me to read something like this and expect this one 
size fits all knowledge from Washington, D.C., to try and 
determine what is appropriate for agriculture within a state 
like Montana. It just baffles me.
    So as I had suggested before, Mr. Chairman, we are not done 
with this. I do get to put the writers on. I know it will pass 
the House. I have no idea whether it will pass the Senate. I 
will do everything I possibly can to keep this regulation from 
ever being implemented as it is written unless you go back and 
just spend a lot more time with Farm Union, Farm Bureau, 
Grange, you name it--I do not care who it is in the Department 
of Agriculture--to try and come up with some kind of a 
sensible, reasonable regulation that truly keeps our children 
safe while at the same time allows the next generation to take 
over their family farm or ranch. Thank you.
    Chairman Tipton. Congressman Chu.
    Ms. Chu. Thank you, Mr. Chair.
    I know that there is some opposition to this rule, but I am 
interested in what I consider to be an important issue, the 
lives of children.
    I read with horror about Wyatt Whitebread, the 14-year-old 
boy in Illinois that suffocated in a grain silo in July 2010. I 
read with horror the cases of Oklahoma teens, Tyler Zander and 
Bryce Gannon, both 17, who each lost a leg in a grain auger 
accident this past August. I read about the 100 preventable 
deaths of youth per year, the estimated 907 youth who died on 
American farms, and I am not one to minimize a single 
preventable death of a young person.
    So I would like to ask you how many youth farm workers are 
killed, injured, and how does agriculture compare to other 
industries in terms of young people's deaths?
    Ms. Leppink. Thank you, Congresswoman.
    The data that children are significantly more likely to be 
seriously injured or killed while performing agriculture work 
than children working in all other industries combined. Studies 
show that children are significantly more likely to die while 
performing agricultural work than while performing work in any 
other industry. These studies also show that the prevalence of 
children working in agriculture suffer more serious injuries.
    From 2003 to 2010, 74 percent of the children under the age 
of 15--so we are not talking about the kids who are 16 and 
older who died--but children who are under the age of 15 who 
died on a job were employed in agriculture. Children ages 15 to 
17 working on farms were four times more likely to die on the 
job than those in any other industry. So consequently, 
agriculture is the most hazardous industry that either adults 
or children work in. And this regulation is only targeting the 
very youngest. And we are only targeting those jobs that are 
the most hazardous. And we are not precluding family farms from 
hiring their kids to work on their farms. We are not 
prohibiting parents from employing their child. We are not 
prohibiting children from doing their chores. We are not 
prohibiting children from participating in 4-H. What we are 
talking about is 15, 14, 13, 12, and younger kids working as 
hired farm workers, often alongside their parents. We are 
talking about the most hazardous jobs that most frequently 
injure and kill children. We are talking about one of the most 
hazardous workplaces that anyone can work, which is a grain 
elevator or a grain bin. We are talking about Tyler Zander, and 
we are talking about Bryce Gannon, who lost their legs in a 
grain bin when they were caught in an auger. That is what we 
are talking about with this regulation. The youngest of the 
young, the most hazardous of the hazards.
    Ms. Chu. And could those injuries and deaths have been 
prevented?
    Ms. Leppink. The kids in terms of the regulation related to 
grain bins that that would not have allowed those children to 
be in that workplace, so consequently yes, it would have 
prevented those injuries.
    Ms. Chu. Some people think that the Department of Labor 
does not have the authority or precedence to issue rulemakings 
for farm workers. But I believe the Fair Labor Standards Act 
governs youth workers. How does the Department define their 
authority in that area?
    Ms. Leppink. When the Fair Labor Standards Act was amended 
in 1966, when the Congress expanded the protections for 
children in agriculture, Congress required the secretary to 
find and declare those jobs that were particularly hazardous 
for children to perform under the age of 16. So consequently, 
our authority and our responsibility to promulgate these 
regulations was in the act.
    Ms. Chu. And once again, about the vocational programs for 
certification, how do these rules impact the vocational 
agricultural programs?
    Ms. Leppink. What these rules do is in an effort to--
because what the bona fide child student-learner provisions of 
the rules allow is that for children who are participating in 
those vocational programs at ages 15 and 14 to engage in 
activities that they would otherwise be prohibited or jobs that 
they would otherwise be prohibited from being employed to do. 
So consequently, what the regs do is that when early on in the 
first iteration of these regulations there was not a lot of 
information about these vocational training programs. So what 
this proposed rule is intending to do is to articulate 
standards for training programs whereby there is more assurance 
that children are receiving the kind of training, both in the 
classroom and on the job that they need to be able to operate 
particularly this equipment, hazardous implements safely.
    Ms. CHU. But it sounds like those programs can continue.
    Ms. Leppink. Oh, yes. Yes. In fact, you know, there is 
nothing that eliminates any program. All it does is establishes 
criteria for when the training received in those programs can 
result in an employer taking advantage of that student learner 
exemption.
    Ms. Chu. Mr. Chair, I have to go to another appointment but 
I would like to have unanimous consent to have materials 
inserted into the hearing record. I have a written statement 
from the Association of Farm Worker Opportunity Programs and a 
written statement by the Child Labor Coalition.
    Chairman Tipton. Without objection.
    Ms. Chu. Thank you.
    Chairman Tipton. Representative Bartlett, do you have some 
questions?
    Mr. Bartlett. I was born in 1926, and I grew up during The 
Depression. I always lived on a farm. As a child we had only 
horses on the farm and then we moved to tractors. I worked as a 
kid on a farm. My kids worked on the farm. My grandkids work on 
the farm. I will tell you there is nobody more concerned about 
the health and safety of these kids than their parents.
    There are two basic philosophies as to why we need 
regulations. One of them is that every provider, every 
manufacturer, every employer, and in this case I guess you 
would include parents, are some combination of evil or greedy 
or stupid. And if you do not watch them and control them they 
are going to take advantage of employees or consumers or 
children.
    And then there is a second premise for regulations and that 
is that every consumer is incredibly stupid. And they are going 
to hurt themselves if we do not have a whole lot of regulations 
to prevent them from doing that. If you think about all the 
regulations that we have, they are formulated in response to 
one or both of those fundamental philosophies which I reject 
and I think the average American rejects those philosophies. If 
you want to be useful, please educate.
    I had a fire on my farm and some bureaucrat came and put a 
big thing on the door. It is unsafe; you cannot go in. Do not 
tell me I cannot go in my building. Tell me you do not think it 
is safe for me to go in my building. I am not an idiot. I will 
be happy to have your education but do not tell me what I can 
do in my building. I just have a fundamental problem with most 
of our regulations.
    You know, I do not want you to modify this regulation; I 
want you to withdraw the regulation. If you cannot find useful 
things to do in educating our parents, then find something else 
to do because I think what you are doing now is not a useful 
pursuit at all.
    Two of our kids, one of them now is a Ph.D.; the other one 
is a very successful builder. When they were little kids and 
Carroll Burton wanted somebody to pick his corn, he could not 
find any city kids to do that because they were watching 
television and doing drugs and smoking and whatever else. Our 
kids were out there in the morning at sunup going through these 
fields picking corn with long sleeves on because you get--the 
blades will cut your arms. They came in soaking wet from that.
    Long before your age, at 14 they were lifting--well, our 
bales are not 80 pounds so they could lift them. They are 40 or 
50 pounds, the bales that we make with the kicker balers and so 
forth. And they were proud that some of the city kids that came 
to do this could not do it.
    Ms. Leppink. Sure.
    Mr. Bartlett. In the heat of the summer. You know, farming 
is a whole different thing. I have lived on a farm all my life. 
I do not know why you are meddling here. You know, there is not 
a problem. You can find some anecdotal things. The old farmers, 
the juice ought to be worth the squeezing. What you are doing 
here, the juice sure is not going to be worth the squeezing. 
You know, can you not find something more productive to do than 
hassle our farmers?
    Ms. Leppink. I would like to think that I am protecting 
children.
    Mr. Bartlett. I will tell you that the parents are more 
interested in protecting children than you are. Why do you not 
just use your time educating so that they know the proper 
procedures and so forth?
    Ms. Leppink. Congressman, we do spend a significant amount 
of time providing educational assistance. Also, many of the 
things that you describe, this regulation would not prohibit. 
Certainly will not prohibit any work that you did on your 
parents' farm. It would not prohibit the kids from picking the 
corn. It would not prohibit the kids from bucking the hay. Like 
I said earlier, it only limits the most hazardous work that 
kids can do.
    Mr. Bartlett. You do not think parents want to do that same 
thing?
    Ms. Leppink. Well, this regulation has no impact on parents 
parenting their children.
    Mr. Bartlett. How old does the child have to be before they 
can drive a tractor?
    Ms. Leppink. On their parents' farm?
    Mr. Bartlett. Yeah.
    Ms. Leppink. Zero.
    Mr. Bartlett. Okay.
    Ms. Leppink. They can drive the tractor on their parents' 
farm at any age.
    Mr. Bartlett. My time is running out. I just have a real 
problem with our regulations, you know. We are struggling. 
Every six hours another billion dollar debt and we are 
struggling with huge problems and you are doing this? I just do 
not get it.
    Thank you very much, Mr. Chairman.
    Chairman Tipton. Mr. King.
    Mr. King. Thank you, Mr. Chairman. I want to thank the 
witness for coming here to testify. I do not think I would want 
to do that.
    But we all think about this from a perspective of our 
backgrounds and there is a strong culture in American and 
agriculture. I grew up in a rural community and rural areas, 
excuse me, out in the country. And we only had 25 acres and 
that was all timber so I could go out and either cut trees and 
do that and fix fence, which we did, or I could work for the 
neighbors. It was a good thing for me to go out when I was very 
young and I was very proud to be able to go next door and pick 
up a five dollar bill for a day's work. And I learned how to 
work. And I remember that the first time I was put on machinery 
was for 75 cents an hour. And I probably was not worth that. 
But I learned something about machinery and today we have a 
second generation construction company that is heavy equipment 
that runs in multiple states that grew out of that training 
that I received when the only opportunity I had was to go to 
work for the neighbors.
    And now I see that we have--and some of this is going to be 
nonspecific to the rules you are proposing here but the 
anomalies that come from the expansion of the nanny state, this 
aggressive expansion of the nanny state, which is what I think 
Mr. Bartlett has addressed. And I think in terms of this, this 
was during the previous administration when the Department of 
Labor came into my district to examine some youth that were 
working in a convenience store. And they went and interviewed 
them in their households and they said, ``Have you ever worked 
after 7 o'clock on a school night?'' ``Well, two of them said 
yes, one night. Well, that is two violations. ``Have you ever 
operated the pizza dough maker?'' ``Well, no, but I washed it 
once.'' Well, there is another violation because the rule says 
``operate or otherwise use.'' And the interpretation of the 
Department of Labor was that washing the tool in the pizza 
dough maker was otherwise using it.
    And so I look at this and I think what are we teaching our 
youth? Where do they learn their work ethic if we are going to 
ban them from working on a school night past 7 o'clock, ban 
them from washing the pizza dough maker, ban them from running 
the lawnmower up until they are the age of 18, but give them a 
driver's license so they have the ability to go 120 miles an 
hour and turn the radio up full blast. I mean, there is not--
and I know that is not your role to address this but----
    Ms. Leppink. Well, no, but the 120 miles per hour.
    Mr. King. They have the ability to.
    Ms. Leppink. Well, yeah, but it is not----
    Mr. King. Yeah, no, there is a rule. But you do not really 
come here to propose to us that the rules are always followed 
so I think you would recognize that people sometimes violate 
them. But I just bring you back to this, which is part of the 
rules that are in front of us. And that is when I look at 
prohibits them from hurting livestock in a confinement, that 
means that a 9-, 10-, 11-, 12-, 13-, 14-, 15-year-old waiting 
for their 16th birthday cannot step into a hog confinement and 
help sort pigs that are older than six months old, even with an 
adult there to supervise them who has been presumably 
authorized by the parents who are those who have the most 
vested in the protection of their children. Cannot do so on 
horseback. Can they ride a horse? And if there is another horse 
next to them, is that herding? Will that be the interpretation 
that comes, kind of like washing a pizza dough maker is 
operator or otherwise use? I just think this is completely 
outrageous to move down this path.
    But the real question I originally came as I listened to 
you talk is this. You said that agriculture is the most 
dangerous and the injuries to youth are significantly greater 
there than any other occupation. So what is the second greatest 
danger for youth in an occupation? If agriculture is first, 
what is the second?
    Ms. Leppink. Congressman, I do not know. I can get you the 
answer to that.
    Mr. King. I would just find that very curious that if you 
looked at the data----
    Ms. Leppink. I would speculate maybe construction but I do 
not know for sure.
    Mr. King. But if we are looking at data and we are driven 
by data--hopefully we are not driven just by anecdotes.
    Ms. Leppink. No.
    Mr. King. But driven by data.
    Ms. Leppink. Very much so.
    Mr. King. If the data says agriculture and we do not know 
what is the second most dangerous, let me pose this other 
piece.
    Ms. Leppink. Well, I mean, people know. I just do not 
happen to have----
    Mr. King. Yeah, I understand. But you are our expert 
witness. And I do not mean that to mean it derogatorily. I just 
think that a professional curiosity would want to look at the 
full list of that and have an understanding of what that data 
means. And if you only know and you are ready to prepare to 
testify about one component of all that data, then probably the 
proportionality of it has not been internalized professionally. 
And that is curious to me that that could be the case. I am not 
saying would be the case.
    But I just want to pose this then. We have banned kids from 
working in every other profession that I can think of except 
agriculture. So the only place that is really left for them to 
work that I know of is agriculture because of the exemptions 
that are there. So would it not be that if the only place kids 
were really working in reasonable numbers is agriculture if 
that is where the injuries are, yeah, that is kind of a no-
brainer to figure that out. And if we ban kids from working in 
agriculture, yes, injuries will go down. But what we are doing 
is we are shutting down the ability of generations to learn a 
work ethic, to learn a skill, and to learn safety.
    And I think about my kids. I brought them into our 
construction business at age nine. And their first job was take 
the corn knife and cut the weeds growing around the grade 
stakes so the operators could see them from the machine. I 
quickly learned that the safest place for them was on the 
machine, not on the ground, and we made safety adjustments 
along the way as I got older and got skills. But the neighbor 
kids did not have that opportunity. They did not have a dad 
that had a business. They did not have a neighbor that had a 
farm. And these opportunities are being taken away.
    Many things about America's work ethic are being diminished 
by the nanny state and this is one of them. And I just feel 
badly that you are charged with coming here today to make a 
case that I just believe is not very strong. And I appreciate 
you doing that but I wanted to express myself and give you an 
opportunity to say whatever you might.
    Ms. Leppink. Congressman, we have received many comments 
with some of the substantive parts of the issues that you have 
raised, particularly with regard to herding cattle, herding 
animals. And so that is part of the rulemaking process for 
folks like yourself to weigh in on that maybe we got it wrong. 
And so consequently, that is why we put these rules out for the 
very people like you to be able to express your concerns and 
also for you to give us your perspective so when the final 
rules comes out--and there are many, many examples of rules 
being changed as a result of this very process. And so 
therefore, I want you to know that I know that we have received 
similar comments and we are taking very seriously those 
comments. And they will be reflected in the final rule.
    Mr. King. Thank you very much.
    Ms. Leppink. Yes.
    Mr. King. Thank you, Mr. Chairman.
    Chairman Tipton. Yes, sir. Mr. Schilling.
    Mr. Schilling. Thank you, Chairman.
    Just quickly, and sorry, I apologize for being late today. 
You know, I have to agree with what I heard on the tail end of 
this with Mr. King. I also am a small business owner and, you 
know, one of the things I did is I was fortunate enough to 
where I could bring my kids in at 8 years old, 9 years old, and 
teach them some good, solid work ethic. And I think one of the 
things we have got to--number one is we have got to keep our 
kids safe. We totally understand that and we want that to 
happen. And I think the farmers want to keep their kids safe 
also.
    But one of the things that I am concerned of is so many 
times the government comes in to--as Mr. King quoted, it is 
like a nanny state. And I think overall the intentions are good 
but the effects that it has long-term for our work ethic as a 
nation and how it is going to adversely affect our small 
businesses, farms, and other businesses outside the ma and pa 
shops that are out there, the ones that are pretty much the 
backbone of the United States of America I think is something 
that we need to really make sure that as you are having people 
write in that we are really careful and we read through and 
really look at both sides rather than just being reactionary. 
We understand that you want to be on the offense on this also 
but a lot of times we do reactionary things quickly and have 
some very bad consequences that come that hurt our economy 
which as everybody in this room would understand with a 15, 16 
percent unemployment rate when you count everybody that has 
quit looking for work, now is not the time to do that. But at 
the same time keeping our kids safe. So that is the comment 
that I would like to make.
    But thank you very much for coming.
    Ms. Leppink. Thank you, Congressman.
    Mr. Schilling. I yield back.
    Chairman Tipton. I just have a few more questions and I 
think Congressman Critz does as well.
    Ms. Leppink. Sure.
    Chairman Tipton. I would like to follow up a little bit on 
some of your earlier comments in regards to the field operating 
manual when you stated that it was wrong. When did DOL update 
it? And when was the record of those updates?
    Ms. Leppink. Well, the Department has been in the process 
of doing a comprehensive update of the Child Labor chapter that 
was driven by a variety of both regulatory and statutory 
changes and interpretations. One was the passage of the GINA 
law that increased the penalties that the Wage and Hour 
Division is to issue in certain kinds of situations where 
children are killed and injured. We were also updating them for 
purposes of the 2010 amendments to the non-agriculture child 
labor regulations. But that chapter had not been updated in 
many years.
    And so consequently, it is very difficult to keep up to 
date. The FOH, first of all, is an internal Field Operations 
Handbook. Its primary purpose is to guide my field in their 
enforcement of the law. So consequently, however, every time 
the law changes, every time a court decision comes down, every 
time a regulation changes there is a need to update those FOH 
chapters. There are many of them. My agency enforces seven 
major statutes. So as a consequence, we are continuously 
updating or in need to update the FOH, the Field Operations 
Handbook. So as a consequence sometimes those updates are 
delayed. However, the FOH is primarily on the website because 
we get frequent FOIA requests for the public portions of that 
document. And so in order to expedite the publics access to 
that frequently requested information, we simply put it up on 
the website so that we can simply direct people to the website 
as opposed to having them go through a FOIA process to get that 
information.
    So consequently, we are always in a balancing game of do we 
make the information available even though all of it might not 
be up-to-date. So, for example, the FOH that is up on the 
website now does not have any reference to the May 2010 
amendments to the Child Labor Regulations because we were in 
the process of updating the entire chapter in addition to add 
those in addition to many other changes. So consequently this 
is a continuous process that we are engaged in.
    Chairman Tipton. So we have almost got a situation where 
the people are hearing one thing, the enforcement is doing 
something else, and there is not great coordination going on.
    Ms. Leppink. Well, the Agency has significant guidance that 
is actually the guidance that we direct the public to in the 
form of fact sheets and field assistant bulletins and 
interpretations and opinion letters that are the formal 
interpretations of the Agency. The regulations and, of course, 
the statute, are the prime sources for people to know what the 
law requires. As I said, the Field Operations Handbook is 
primarily written to guide my field. But policies change, laws 
change, regulations change, and I have done my best since I 
have started to proactively get those chapters that are out-of-
date that languished prior to 2009 and were not updated. I have 
been working as hard as I can to get those chapters updated 
because I know the importance of that information, you know, 
being current to the extent that the public would look to that 
document for guidance.
    Chairman Tipton. I am curious, and it actually comes from 
some of the comments that have been made here. Does your 
agency--do you think congressional intent is important?
    Ms. Leppink. Absolutely.
    Chairman Tipton. In terms of doing that? Given that, the 
NPRM states that one of DOL's goals is to promote parity 
between agriculture and nonagricultural exemptions. Can you 
tell me where in the originating statute or any subsequent 
amendments that had been made where Congress indicated that it 
wanted such parity?
    Ms. Leppink. I think the conversation about parity comes 
from the idea that agricultural farm worker employees should 
have similar protections as children who are employed in any 
other industry. So consequently, when the Congress made clear 
that we were not going to give similar protections based on age 
to children who were employed in agriculture because for kids 
who are employed in agriculture any kid over the age of 16 can 
be employed to do anything.
    But Congress, in the amendments in 1966, made clear that it 
was its expectation that the secretary of labor would identify 
that work that was particularly hazardous for children in 
agriculture to perform; therefore, it is not a mandate of 
parity but the idea being that when we are updating these 
regulations we should be looking at the hazard as a hazard. And 
if it is too dangerous for a child to perform, it does not 
really matter whether it is in agriculture or in another 
industry if it results in the same risk to that child of 
serious injury or death.
    Chairman Tipton. You know, that begs the question why were 
not the enforcement actions and actions on enforcement 
disclosed in the rule? What is going to be the fine? Who is 
going to enforce it? How much is it going to cost?
    Ms. Leppink. Well, actually, we have a portion of the 
chapter that does discuss the imposition of civil penalties. 
And again, that was an effort to make transparent and to allow 
for comment on how the Agency would be issuing civil penalties. 
And so, you know, regulations are really there to implement and 
interpret the law. And so consequently, that is what is put in 
a proposed rule. So I guess I am not understanding. Maybe you 
could repeat your question.
    Chairman Tipton. Well, I guess what I--because I want to be 
able to move on and be respectful of your time and our other 
panel as well--I guess one thing that greatly concerns me is 
you keep talking about the family farm.
    Ms. Leppink. Right.
    Chairman Tipton. But you ignored in my opening statement we 
have got great grandma and grandpas farm, grandparents? farm, 
our best friend?s farm down the road, to be able to get them 
involved and for those children to actually to be able to get 
to work. So is this government trying to micromanage what has 
been a traditional method of neighbors working with neighbors, 
family members working with family members, and you are going 
to define what a family unit is and limit it to that?
    Ms. Leppink. There is a lot of legislative history that 
talks about how this new regulation or this new statute was 
going to protect children, and taking into consideration as 
expressed in the congressional history, the family farm. The 
way it is articulated in the legislative history, the purpose 
of the parental exemption, which is the language--this is not 
regulatory language; this is statutory language, which is that 
a child employed by their parent on a farm owned or operated by 
their parent, was based on the legislative history the effort 
of Congress to acknowledge the family farm and the opportunity 
for children to work on their family's farm.
    So what the Department of Labor is doing its best is to 
apply that statute and, of course, the intent as we understand 
it of Congress that parents were perceived--which I would 
absolutely agree; I am a parent--are naturally in a position to 
look after the welfare of their children. And therefore, the 
law should not go there to impinge on the ability of that 
parent to make good decisions on the path of their child. So 
now the task for the Department of Labor is to discern how best 
to implement the intent of Congress.
    Chairman Tipton. Okay. Just kind of an opinion. I think 
that we ought to empower those parents as well to say they can 
go and pick corn.
    Ms. Leppink. Okay. And I, you know, Congressman, this is 
another area, as you know, because we are reproposing the rule 
where the Agency has received significant comments. The idea of 
reproposing the rule was to be able to be certain that we can 
take full consideration of just the concerns that you just 
raised.
    Chairman Tipton. Congressman King, thank you.
    Mr. King. I thank the Chairman for recognizing me. I just 
want to--a brief question I would like to ask. And as I 
understand it you do speak for the Secretary of Labor.
    But has the Department of Labor consulted with the 
Department of Agriculture? And does the secretary of 
agriculture advocate also for these rule changes?
    Ms. Leppink. I cannot speak for the secretary of 
agriculture. I mean, his statement is in the press release 
regarding his concern about ensuring the safety of children who 
are employed as hired farm workers in agriculture. He has also 
made the commitment and so has my secretary that the two 
agencies will work together when this part of the rule is 
reproposed. And, of course, in the part of the rule that is 
going forward with comments considered. And so consequently we 
have been working for probably over a year with the Department 
of Agriculture on the policy discussions related to this.
    Mr. King. And so he has been weighing in. And judging from 
the public statements that he has made, the secretary of 
agriculture is working in cooperation with the secretary of 
labor in advocacy for these rules?
    Ms. Leppink. What I can say is that the Department of Labor 
is working with the Department of Agriculture on these rules. 
We will be working with them on the reproposed parental 
exemption also. And so both agencies are fully engaged and we 
are working together.
    Mr. King. I will not press you further. Thank you very 
much.
    Thank you, Mr. Chairman.
    Chairman Tipton. Well, you are about off the hook here. I 
do want to yield to the congressmen for the last series of 
questions on this.
    Ms. Leppink. Okay.
    Mr. Critz. And just in case you did not see, Punxsutawney 
Phil did see his shadow so there are six more weeks of winter. 
So just----
    Ms. Leppink. Winter has not been so bad so far so I guess 
we cannot complain.
    Mr. Critz. No. No. So just as a point of clarity, when you 
said reproposing the rule, is it only the parental exemption 
rule?
    Ms. Leppink. Right.
    Mr. Critz. It is nothing else?
    Ms. Leppink. The reproposal is the parental exemption.
    Mr. Critz. Just the parental exemption?
    Ms. Leppink. Right.
    Mr. Critz. Okay, just one final question. To give you some 
background, I used to work in my District for a Member. So part 
of my job was trying to figure out what was going on in 
Washington and what it was going to mean to our constituents.
    Ms. Leppink. Sure.
    Mr. Critz. And one place where I have concerns--because it 
is all based on interpretation--is that in the Federal 
Register, in the proposed rule it says ``Department's broad 
proposal to prohibit hired farm workers under the age of 16 
from operating or tending any power-driven machinery, power-
driven equipment operated by any source of energy, such as 
wind, electricity, fossil fuels, batteries, animals, or water, 
would all be considered power driven under this Ag Hazardous 
Occupation Order, as would any farm implement powered or pulled 
by an animal, a tractor, or any other power-driven equipment.'' 
That is pretty broad.
    Ms. Leppink. Right.
    Mr. Critz. Does it include a wheelbarrow?
    Ms. Leppink. No.
    Mr. Critz. Are we sure?
    Ms. Leppink. We will make that clear.
    Mr. Critz. See, because interpretation can be very broad; 
it can be very narrow. And your interpretation could be 
extremely different from what someone elses interpretation is 
of this.
    Ms. Leppink. We have received many comments on just that 
part of the rule. We recognize, you know, it is always good to 
have 10,000 hypotheticals to help you sort of make sure that 
what you are doing is clear. So consequently, and I have heard 
about the flashlights and the battery operated screwdrivers. So 
believe me, we will be addressing those issues that have been 
raised in the comments so that there will not be that 
confusion.
    Mr. Critz. Good. Just two more things.
    In Pennsylvania, there are a lot of Amish.
    Ms. Leppink. Yes.
    Mr. Critz. And the farming is done on communal land where 
the parents may not actually own the farm. While there is a 
religious exception in federal law for the Amish, it only 
pertains to the schooling hours requirement. Given the critical 
role that farming plays in these communities, did the Labor 
Department consider any further exemptions?
    Ms. Leppink. The proposed rule does not include any further 
exemptions for the Amish. I have to say that I do not know 
whether we got any comments on that. So that would be then an 
issue as to whether if we did, you know, whether that would be 
in the scope of the rulemaking. So I can be happy to have my 
staff let you know whether we received any comments. All the 
comments are public and posted on the website but there are 
10,000 of them so I would be happy to make sure that my staff 
provides you with any information that we got related to 
application to Amish.
    Mr. Critz. Okay. We actually have representation in the 
audience from the Pennsylvania Farm Bureau.
    Ms. Leppink. Okay. So then maybe they can help you.
    Mr. Critz. Yes, we can make sure that if they have not had 
an opportunity or did not even know what was going on, that 
they are made aware.
    The final, closing comment is that, I think we have heard 
it from here and we are probably going to hear it from the 
panel as well, that family farming is a different animal than 
how traditional businesses are run. The interesting part about 
farming is the statistics I cited that safety has been 
increasing exponentially over the last 10, 12 years. One other 
thing that I think is interesting is that the education level 
of family farmers and farmers that I know across Pennsylvania 
has increased dramatically. What we know is that these are 
their children. Obviously there is going to be negligence at 
some point, and my hope is that we are not creating a rule or 
defining a rule because of one or two bad actors and imposing 
it on everyone else who is following the rules. That would be 
my closing comments.
    I really appreciate your coming in. Thank you, Mr. 
Chairman. I yield back.
    Chairman Tipton. Thank you. And I interpret what I am 
allowed to do to extend it actually just a little bit.
    Ms. Leppink. Oh, okay.
    Chairman Tipton. Okay. Congressman Schilling had another 
question.
    Mr. Schilling. Thank you, Chairman. And Mark brought up a 
pretty good point. My cousin had a 2,000 acre farm that as kids 
we used to go there all the time. Would this also include 
recreational vehicles of the farm family? Like, for example, 
snowmobiles or minibikes? Are they not going to be able to 
allow kids, the farm kids to ride those? Those are motorized 
vehicles. Is that something that is going to have--to me this 
is very frustrating because it is more of the unintended 
consequences that the government puts forth. Is this something 
that is going to be clarified also, ma?am?
    Ms. Leppink. Yes. This is a proposed rule. First of all, 
again, kids can do any work for their parents. So, you know, at 
any age, any job, any time they can work for their parents. 
Yes. We have received comments on that. I am cognizant of that. 
I can assure you as the head of the agency that we will fully 
consider all of the things that have been brought up today 
regarding concerns, confusions, the issues that have been 
raised regarding the scope of the parental exemption. Every 
single one of them will have my personal attention to ensure 
that we are thinking through the issues that this Committee has 
raised.
    Mr. Schilling. Awesome. Thank you very much. I yield back.
    Ms. Leppink. Thanks.
    Chairman Tipton. Thank you, Congressman Schilling. And I 
think the last thing I would like to encourage you to do, you 
keep focusing on the family farm.
    Ms. Leppink. Yes.
    Chairman Tipton. You have got to understand the ag 
community is a different world than downtown Washington, D.C. 
When we talk about, again, the grandparents, the neighbors that 
are there. And I think we are all going to be monitoring this 
and we will certainly appreciate any updates from you.
    The Committee may have some additional questions regarding 
this matter so we may reach out to you with those and we would 
appreciate your response. And again, I would like to thank you 
for taking your time, Ms. Leppink, to be here with us today.
    Ms. Leppink. It has been my pleasure.
    Chairman Tipton. This portion of the hearing is now closed.
    [Recess.]
    Chairman Tipton. I will now continue with our second panel.

STATEMENTS OF CHRIS CHINN, OWNER, CHINN HOG FARM, TESTIFYING ON 
 BEHALF OF THE AMERICA FARM BUREAU; KENT SCHESCKE, DIRECTOR OF 
STRATEGIC PARTNERSHIPS, TESTIFYING ON BEHALF OF FUTURE FARMERS 
OF AMERICA; BOB TABB, DEPUTY COMMISSIONER, WEST VIRGINIA STATE 
    DEPARTMENT OF AGRICULTURE; RICK EBERT, VICE PRESIDENT, 
                    PENNSYLVANIA FARM BUREAU

    Chairman Tipton. And I would like to take a moment for our 
panelists to be able to explain the timing lights. Each witness 
will have five minutes to be able to deliver your testimony. 
The light will start out as green. When you have one minute 
remaining the light will turn yellow. And finally, it will turn 
red at the end of your five minutes. And I would ask that you 
try and keep it in that time limit but I will certainly be 
respectful of you in terms of letting you wrap up a comment.
    I would like to introduce our first panelist here on our 
second panel, Chris Chinn of Chinn Hog Farm in Clarence, 
Missouri. She and her husband operate Chinn Hog Farm located in 
Clarence, Missouri. Chris and her husband are fifth generation 
agricultural producers and they currently operate a diversified 
operation that includes raising crops and livestock. She is 
testifying today on behalf of the American Farm Bureau 
Federation and will be able to provide an agricultural 
producer's perspective on the effect of these rules on family-
owned small business farms. Ms. Chinn, thank you for appearing 
today and you may now deliver your testimony.

                    STATEMENT OF CHRIS CHINN

    Ms. Chinn. Thank you, Chairman and members of the 
Subcommittee. I appreciate the opportunity to share my comments 
on the Department of Labor's proposed regulation and how it 
will affect farm families.
    As you said, I am also here today on behalf of the American 
Farm Bureau Federation, the nation's largest general farm 
organization.
    Last December, Farm Bureau and over 70 other agricultural 
organizations filed extensive comments in opposition to the 
Labor Department proposal. I would like to ask that those 
comments be included in the hearing record.
    My husband Kevin and I are fifth generation farmers and we 
are the proud parents of two terrific kids, Rachelle, who is 
14, and Connor, who is 10. Both of our children work on our 
family farm on a daily basis, just like Kevin and I did when we 
were growing up. It is a way of life in rural America but it is 
more than that. It is a way for us to instill important values 
in our children. Having the right work ethic, earning your 
keep, recognizing that if you set your mind to something you 
can accomplish almost anything. That effort and reward are 
related. And above all, to be careful when the job that you are 
doing entails risk.
    In addition to the chores that our kids do on our farm, 
both our kids help their grandma and grandpa on their farm. 
Connor collects eggs from the hens for which grandma pays him 
for, and he also helps her clean out the chicken house. 
Rachelle helps grandma in the breeding barn with our sows and 
she helps breed those animals. She also uses the power washer 
in the hallways to help clean the hog barn.
    Their childhood is a lot like mine was, except I did not 
get to grow up on a family farm. I spent lots of weekends in 
the summertime and days through the summer helping my 
grandparents on their family farm. I started driving a tractor 
when I was 12 years old. I milked the cows, I collected the 
eggs, I fed the livestock. I even cut weeds out of the bean 
field. And I also bucked hay bales. That was part of growing up 
on the farm and I can honestly tell you that I would not trade 
it for anything in the world.
    But nearly every one of the tasks that I did as a teenager 
would be prohibited by the new proposed hazardous occupation 
order. Driving tractors is forbidden by HO No. 1. Milking a cow 
is prohibited by HO No. 4. Cutting weeds would be banned by HO 
No. 3. And building or repairing a fence would be banned by HO 
No. 6. I know that some people are saying that these 
regulations will not affect farm families, but I urge the 
members of this Committee to read the actual proposal.
    Yesterday, the Department said they would repropose the 
parental exemption part of the rule. That is positive. But 
until we know exactly what they intend to do I think farmers 
and ranchers in agriculture are going to continue to be 
worried. To know why you just need to look at that original 
proposal. The Department said that once ownership of a farm is 
shared with persons other than or in addition to the parent the 
exemption does not apply. The proposed regulation also said 
that a child had to actually live with a relative for possibly 
three months to be exempt and that a period of less than one 
month would not be sufficient for the parental exemption to 
apply. It also stated that a child who is exempt from the AG 
HOs when employed on his or her parents' farm would generally 
lose that exempt status when employed on a farm owned or 
operated by a neighbor or a nonparental relative such as a 
grandparent, aunt, or uncle.
    When farm and ranch families tell you they feel threatened 
by these regulations, I hope you can understand why. I do not 
know how anyone can say that the Department of Labor is not 
fundamentally changing how they are going to enforce the law. 
The parental exemption is a critical part of this debate but it 
is not the only part. For instance, the Department wants to say 
that no youth under the age of 16 can work with any equipment 
that is operated by any power source other than human hand or 
foot power. That would eliminate a lot of equipment, including 
flashlights and garden hoses, which is not particularly 
hazardous. I do not think for one minute that Congress gave 
them that authority, and I certainly hope that you will not 
now.
    People like Kevin and I, we do not need people in 
Washington, D.C., telling us what our children can and cannot 
do on our family farm. We are pretty good at doing that 
ourselves. Our children are never allowed to go near our bulls 
or the grain augers. They are not allowed to be around a 
tractor that is mowing hay unless they are inside that tractor 
in a buddy seat with a seatbelt on. They are not allowed to go 
near our feed mill mixer. They are not allowed to mow grass on 
hills or near buildings. And they are not allowed to power wash 
inside of a furrowing room yet.
    I would also like to mention that my 14-year-old daughter 
Rachelle has been to the emergency room three times this year. 
Not one of these injuries was a result of something that 
happened on our family farm. Instead, they were school-related 
sports injuries. Never have my children been hurt on our family 
farm and never have they had a need to have to go to the 
emergency room because of something that happened on our farm. 
But my daughter Rachelle has went to the E.R. three times this 
year because of something that happened at school.
    There is an overwhelming feeling in the agriculture 
community that the whole proposal is fundamentally flawed. 
While we are pleased about yesterday's decision to repropose 
the parental exemption, I think most of us in agriculture feel 
that it would have been much better had the Department 
withdrawn the entire rule.
    I would like to thank Congressman Rehberg for his 
leadership in this issue and to each of you on this Committee 
who signed onto his letter last year. Thank you for allowing me 
the time to testify today and for allowing me to share my story 
with you. I would be happy to answer any questions that you 
might have.
    Chairman Tipton. Thank you, Ms. Chinn.
    Our next witness is Kent Schescke. He is director of 
Strategic Partnerships for the Future Farmers of America. Kent 
has worked with the National FFA organization since 1991 and 
has served in his current position since 2009. As a youth, he 
participated in FFA programs and is here to testify regarding 
the effect of DOL rules on youth agricultural education 
vocational training programs.
    Kent, if you would like to go ahead and deliver your 
testimony.

                   STATEMENT OF KENT SCHESCKE

    Mr. Schescke. Thank you, Chairman Tipton and members of the 
Subcommittee for allowing me to be here to speak.
    As you shared in my introduction, I am a product of FFA. I 
have worked for 14 years in Missouri as an agriculture 
instructor, and I have had the privilege for the last 20-plus 
years to work for the National FFA.
    We are here really today to talk about the impact of this, 
and it has been alluded to in some of the comments that were 
made in opening as well as the impact of this on agricultural 
education programs that are school-based programs. And we think 
that there are some issues that need to be addressed.
    And to give you a little bit of background today, we have 
about 7,500 agricultural education programs across the United 
States. These programs are run by about 11,000 professionally 
trained teachers, meaning these are teachers that have degrees 
in agriculture or certification to teach, hired by their local 
school district to be agriculture education instructors. We 
have enrollment today of about nearly 800,000 students, high 
school students in these programs across the country. We have 
an FFA membership today of 540,000, which really represents an 
all-time high membership for our organization.
    Agriculture education in public schools has been around for 
almost 100 years. The Smith-Hughes Act in 1917 really created 
these programs and today while the focus of agriculture has 
changed, our programs today really focus on the science and the 
business of technology of agriculture and helping young people 
prepare for careers in agriculture.
    When it started the primary focus was, again, this dates it 
but young boys involved in agriculture. It was not until 1969 
that we actually recognized young women and brought them into 
it. But really preparing young people for careers in 
agriculture.
    The other interesting statistic is that two-thirds of the 
students we serve today come from non-farm backgrounds. These 
are students who live in rural America who are interested in 
agriculture or students who live in urban and suburban 
communities. And we feel this is important that we give them 
the experiential learning experiences that go along with 
agriculture as alluded to over in the comments.
    Our program has got really three components. And in my 
testimony I presented a diagram that kind of illustrates that. 
For students to be members of FFA they have to be enrolled in 
an agriculture education program. That is somewhat unique. It 
is not just a club that they walk off the street and join; it 
is tied to this instructional program. In these programs this 
is where they learn the science business technology and there 
is also a heavy emphasis on safety and safety education because 
of the career preparation part. Helping people understand the 
hazards that are in agriculture and how by expanding their 
knowledge and understanding of it and the practices that they 
can work safely.
    The second part of the program is what we call experiential 
learning or supervised agricultural experience. And again, it 
is an opportunity for students to take what they learned in the 
classroom and put it to application in a workplace setting. And 
that was alluded to in the earlier discussion. That experience 
is very important for young people as they prepare for 
agriculture because they are able to learn the science, the 
business, the theory, but the contextual hands-on learning is a 
part of our motto. Actually, the FFA motto is Learning to do, 
doing to learn, earning to live, and living to serve. And that 
learning to do and doing to learn is an important part of what 
we believe and what is core to our program.
    The third circle is really the FFA organization. And we 
provide a lot of rewards, recognition, motivation for those 
young people to take not only what they have learned in the 
classroom but also to the experiential learning programs and 
help them see how they can utilize that in their career 
aspirations, whether that is to continue in the production of 
agriculture or to work in many of the related areas. And for 
even students who are going into non-farm agricultural-related 
careers, that agricultural knowledge that they gained through 
the firsthand experience of working in production agriculture 
is a very important experience for them.
    Probably some of our concerns about the proposed rule is 
really the role of the student learner exemption. And I would 
call your attention. The side by side comparisons exists on the 
Department of Labor's site. It looks at the current and the 
proposed. And in there it states that in the existing current 
role the student learner exemption kind of runs across all of 
the defined hazardous occupation areas. In the proposed rule it 
is limited to only the first two. And at the same time they 
have taken it from what was six areas and expanded it to 14.
    So in our opinion, at least our definition of the rule is 
that they have severely limited the opportunities for students 
who are enrolled in these agricultural education programs to 
benefit from this experience by drawing it down to just two 
areas from now what is in the proposed rules 14 different 
hazardous occupation areas. And that is an area that we have 
concern with. We hope that is an area that the Department of 
Labor continues to work on this, continues to look at. In fact, 
we would have liked to have seen that one as well opened up in 
this parental exemption piece because we think there is as much 
work that maybe needs to be defined in that process as well.
    And I want us to stop here and say that our teachers, their 
responsibility in this is to provide the supervision, to work 
with the employers, to work with the parents, and to come up 
with training programs that reflect the scope of the work that 
the students are to do, as well as make sure that it is done 
safely. Our teachers care about the safety of their students. 
They are very committed to making sure that they maintain that 
safe-working, and make sure that our students benefit from the 
experience.
    Thank you and I entertain any questions.
    Chairman Tipton. Thank you so much.
    Our next witness is Bob Tabb. He is deputy commissioner of 
the West Virginia State Department of Agriculture. Bob grew up 
on a dairy farm and has been involved in production agriculture 
his whole life. He is testifying today on behalf of his boss, 
the electric commissioner for the West Virginia Department of 
Agriculture, Gus Douglas. Mr. Tabb, you may now deliver your 
testimony and thank you for being here.

                     STATEMENT OF BOB TABB

    Mr. Tabb. Thank you, Chairman Tipton, Ranking Member Critz, 
and other members of the Subcommittee for inviting us to 
participate in one of the most important situations to affect 
agriculture for the future of this country. And it is about 
agriculture and young people.
    I am Bob Tabb, and I am deputy commissioner of agriculture 
for the longest serving commissioner in the country. Gus 
Douglas is on his 44th year as the commissioner of agriculture 
for the State of West Virginia. And in West Virginia, the 
commissioner of agriculture is a constitutional officer. So he 
is elected by the officer and to represent the people. And that 
is why I am here today because we are representing the people 
of West Virginia along with NASDA, which is an organization we 
belong to of all 50 states and four territories.
    I grew up on a dairy farm in Jefferson County, West 
Virginia, which is about 60 miles west of here. And having been 
from a dairy background the one thing I will share with the 
members today, this year dairy farmers get to do one thing they 
do not normally get to do. It is a leap year so they get to 
milk the cows two extra times this year. And the point of that 
is agriculture is commitment. It is not just an occupation; it 
is a way of life. And that is the part that I think some people 
do not seem to understand the affect that these type of rule 
changes can have on an industry so critical to this country.
    West Virginia has over 23,000 small farms, and 
statistically a little bit higher ownership than the state of 
Pennsylvania. West Virginia actually has the highest percent in 
the country of owner-operated farms. A lot of small operations. 
In West Virginia and across this country--and this is a quote 
from Secretary Vilsack last month at a briefing I was at here 
in D.C.--but he said the average age of the American farmer is 
nearing 60 years old. And a lot of this focus is on the family 
farm and the children. But for me to do the math, when the 
average farmer is approaching 60 years old, that tells me there 
is getting to be less and less children under 16 that their 
parents are actually farming. So that increases the need not 
only to allow nieces and nephews and grandchildren and 
grandnieces and nephews but of other youth in the community.
    As this population ages, they need help. And they care 
about their operations. The one thing that has not been brought 
out here today is liability. If these children are negligently 
injured or killed on a farm there is a price to pay. And there 
is no price to put on a child's life. But if they do serious 
violations, they have got penalties to pay. And the farmers 
that I know are not prone to go out there and just shamelessly 
put people in harm's way. I do not care whether it is their 
child. In fact, I am a grandparent. And I let my kids do things 
on the farm that I will not let my grandkids do. So I think if 
you want the next level of child protection, if you put the 
grandparents in charge of them there are a few things they 
might not get to do.
    The National Institute for Occupational Safety and Health 
has made 14 recommendations. And although the Department of 
Agriculture is in agreement with some issues about instances of 
when you can and cannot use a cell phone, you know, working 
with anhydrous ammonia, some of these confined spaces with 
limitations, there are some things that can be done. But they 
need to be done in a reasonable manner.
    The proposed change to--this is a quote from the Proposed 
Rule Change to Employment in Agriculture under Adverse 
Conditions states in part, The Department is asking for 
comments on whether it should create a new Ag HO addressing use 
exposure to extreme temperatures. Such an Ag HO could provide 
the youth under the age of 16 would not be permitted to work in 
agriculture occupations where the temperatures at which they 
are working exceed or drop below a certain temperature, factor 
in such things as humidity, wind velocity, and the degree of 
duration of physical exertion required by the work. It might 
also require that hours in direct sunlight be limited if the 
temperature reaches certain thresholds for long periods of 
time.''
    Anyone who has ever farmed understands weather is the most 
unpredictable part of farming. To comply with this proposed 
rule change would most likely require one of two options. Hire 
a full-time meteorologist to document all the requirements and 
advise when youth under 16 could work. Or secondly, just simply 
limit farming if you rely on youth under 16 to stack hay, pick 
fruits or vegetables, feed or work with livestock, or just pull 
weeds because it does get hot and it does get cold on a farm.
    Studies over the 11-year period from 1998 to 2009. I know I 
am about to run out of time but I appreciate your involvement 
of the 2011 fact sheet on childhood agriculture injuries and I 
would certainly be glad to answer any questions you may have 
relating to that.
    Thank you, Mr. Chairman, and members of the Committee.
    Chairman Tipton. Thank you, Mr. Tabb. And I would now like 
to yield to Ranking Member Critz so that he may introduce the 
minority's witness.
    Mr. Critz. Rick Ebert is the Pennsylvania Farm Bureau's 
vice president, a position he has held since 2004. Mr. Ebert, 
in partnership with his brother, operates a dairy farm where he 
milks 80 Holsteins and farms corn, alfalfa hay, barley, soy 
beans, and wheat on 450 acres. He was the 1983 recipient of the 
Westmoreland County Conservation award, and won the Charles E. 
Cohen Memorial Award, presented to the dairyman who has 
demonstrated superior management capabilities and provided 
outstanding leadership qualities within the industry. Rick, 
welcome, and please go ahead.

                    STATEMENT OF RICK EBERT

    Mr. EBERT. Thank you. Chairman Tipton, Ranking Member 
Critz, and members of the Committee, I want to thank you for 
allowing me to speak at this hearing.
    I appear before you today not only a as a farmer but also 
as a parent. And I want to recognize my wife who is here with 
me today with the same concerns as parents who have kids on the 
farm. We have raised four wonderful children on a farm that are 
highly productive, respectable kids out in the community right 
now.
    I must admit yesterday's announcement by DOL regarding 
parental exemption was good news to the farming community, but 
the decision does not help American farmers. It only makes 
their current proposed rule hurt a little bit less. And I would 
be remiss if I did not say that farmers are still concerned 
with what DOL might repropose. DOL must take great care in 
considering any changes to the parental exemption.
    My farm is a partnership. DOL should not reserve the right 
to tell operators of a farm like mine that they cannot hire 
their children, nieces, nephews, or grandchildren to help 
during the summer months. My children help all feed cows. This 
involves direct contact with an animal. There is little or any 
risk at all in helping feed cows. Anybody here that has 
children, calves to my children are the same as anybody else's 
children getting a new puppy or a new kitten. It is the same 
idea for them. They enjoy doing it. It is a pleasure. There is 
hardly any risk involved.
    Whether jobs involve animals or not, I am constantly 
mindful of each of the child's abilities and the task at hand. 
I match the child's ability to the task that they can complete. 
DOL's rules seek to limit the ability of kids to milk cows or 
feed calves. I also fear this rule will restrict the ability of 
youth to work with any livestock for the purpose of ag 
education. My school district is the only district in the 
county that still funds an ag education program, but in a 
current budget year for Derry Area School District, ag ed was 
cut by 50 percent. Last year we had two ag teachers instructing 
over 120 students in 14 classes. This year we are left with one 
ag teacher reaching 80 students in six classes. DOL's rule 
would have our remaining ag teacher rebuild his curriculum to 
achieve safety requirements and then try to squeeze in all the 
other aspects of farming and ag business.
    The rule restricts 14- and 15-year-olds from farm 
activities unless they are enrolled in ag education and 
complete 90 hours of safety training. If you think about 90 
hours of safety training and with a high school class of 
between 45 and 60 minutes, you are talking over 18 weeks or at 
least half of the school year that they are devoted to safety 
training only. And that only leaves that portion of the rest of 
the year for any type of career development. In my area there 
are several students who enjoy working on a neighbor's farm 
during the summer months for various reasons but they cannot be 
enrolled in the ag education program because their school does 
not offer it and because they are really not planning on a 
career in agriculture. But the work performed by these students 
is still valuable and needed and it allows them to earn a wage 
that they can put away for college.
    As my boys were growing up they would help me put hay away. 
Working on the hay wagon and in a barn's hayloft occurs at 
elevations over six feet on my far. DOL's height restrictions 
may be intended for 30-foot ladders, but unfortunately it would 
disallow the process of placing hay in storage on many farms.
    Mindful of safety, I provided opportunities to my children 
to learn in the hands-on environment, whether it was an impact 
wrench, screw gun, power washer, or electric feed cart. My 
children were safely operating powered equipment on a farm with 
appropriate levels of adult supervision and safety precautions. 
If taken literally, DOL's standards would prohibit most 
activities around my farm. Without being harshly critical of 
DOL's position on power equipment, the days of hand and foot 
powered equipment has passed. Technology has offered much safer 
and more efficient means to accomplish farm tasks. On my farm, 
no one operates equipment unless I am comfortable with their 
ability and the level of risk associated with their job.
    Thank you for this opportunity and I entertain any 
questions at this time.
    Chairman Tipton. Thank you, Mr. Ebert. I appreciate your 
time and being here today.
    I will go ahead and begin our questioning. And I would like 
to start with Mr. Tabb, if I may. I understand that 
Commissioner Douglas could not be here today because he is 
appearing before the Legislature's Budget Committee.
    In a time of declining and tightening state budgets, will 
state education agencies and local school districts be in a 
position to provide more safety training? Or should DOL 
continue to allow federal extension services to provide those 
programs?
    Mr. Tabb. Thank you, Mr. Chairman.
    We definitely believe that the programs that are in place 
are working. And the study that I will cite is the Childhood 
Agriculture Injury Study that was actually sanctioned by NIOSH, 
was done at WVU in Morgantown, and actually is one of the most 
current studies on childhood injuries that is out there. A lot 
of the data in this rule was old data.
    But to show a 59 percent decrease in the amount of injuries 
over the last 11 years truly shows that education and 
technology have both helped to move this forward. So with the 
cutting budgets, what is available through Extension, through 
4-H, through the current programs, if the numbers had gone the 
other way on this study I think there would be a different 
mindset because none of us want children to get injured.
    Chairman Tipton. Certainly. You know, in your testimony you 
addressed the Ag HO that is talking about extreme temperatures 
and you joked that in order to comply with the ever-changing 
weather it would probably be necessary to hire a full-time 
meteorologist. You have been around this. Do you not think most 
parents who supervise their children know when it is time to 
come in from the outside?
    Mr. Tabb. That. And not only the children but the employer, 
the farmer who has got them there, if he does not keep his 
help, whether it is his own children over 16, over 18, 14 to 
16, if he does not keep them hydrated and in reasonable 
accommodations you are not going to get any work. You do not 
get productivity.
    You know, I priced the Gatorade and that type thing to them 
but I just cannot understand. It is making the assumption that 
every farmer is some evil person who their goal is to have 
children harmed on their operation. I do not think the 
statistics show that of reporting and, like I said in my 
statements about the liability, you know, if you are negligent 
and you let somebody, whether they are 14 or 16 or 25, is 
negligently hurt on your farm operation, you have got something 
to deal with both with penalties and liabilities on lawsuits.
    Chairman Tipton. Thank you. I appreciate that.
    Ms. Chinn, we probably have some other people in here that 
know what bucking bales means. I appreciated that.
    Everyone has testified today that they are not only farmers 
but also a parent. In your experience, do other blood 
relatives, such as grandparents, aunts, uncles, all share that 
same level of concern for the well-being of our children?
    Ms. Chinn. They do. You know, I love my children more than 
anything in this world and I would never do anything to put 
them in harm's way.
    Chairman Tipton. The government does not have to tell you 
to care about your children?
    Ms. Chinn. No. They do not.
    Chairman Tipton. Okay.
    Ms. Chinn. But my mother-in-law, she is more possessive of 
my children's safety than I could ever think about being. 
Someone made that comment earlier about being a grandparent and 
not letting your grandchildren do what your children do. My 
mother-in-law is a perfect example of that. My husband started 
going out in the hog lot out in dirt lots at the age of five 
behind his mom and dad. Luckily because of science and 
technology we have been able to move our hogs indoors now at a 
climate-controlled computer system that keeps it like air 
conditioning in the summertime and it is heated in the winter. 
So it is year round 70 degrees inside our hog barns. That is a 
very safe environment for our children to be in. But my husband 
as a child did not have that luxury. And my mother-in-law every 
day thinks about what she is doing with her grandchildren and 
how she wants to teach them how to care for the livestock and 
care for our environment so that someday they are teaching 
their grandchildren the same thing that she is doing. She would 
never, ever put our children in harm's way.
    Chairman Tipton. She would never tell them to run in front 
of a tractor?
    Ms. Chinn. It is interesting you brought that up. My 
children learned at a very young age to get out of the way of a 
tractor, yet we had a state department worker who was there 
doing an inspection on our family farm that we had to ask to 
get out of the way so he did not get run over by a tractor.
    Chairman Tipton. The government expert. Okay.
    You know, you mentioned that your 14-year-old daughter 
Rachelle visited the emergency room three times, never got 
injured on the family farm, injured at school. So do you 
believe there is a need for the Department of Labor and this 
administration to try and regulate so many facets of everyday 
life?
    Ms. Chinn. No. I think the Department of Labor may be well 
intentioned but I do not think they fully understand what we do 
on our farms and our ranchers today. My children have never 
once been injured on our farm but I send them to school and I 
get phone calls that I need to take them to the emergency room 
because they have a concussion as a result of a basketball 
injury or their hip gets pulled out of place doing a layup. 
These are the types of phone calls that I get, and I have been 
there. And I have watched it happen. But I have never put my 
child in harm's way out on our family farm. If something is not 
safe for her to do I am not going to let her do it. Because 
when you get that phone call that your child has been hurt, 
there is nothing worse in the world. It breaks your heart and 
you want to take care of your child. And I do not need the 
government coming out here telling me how to love my daughter 
because that is something that the day I gave birth to her was 
automatic. It was even before I gave birth to her that I loved 
that little girl.
    Chairman Tipton. Absolutely. Thanks. And you are leading 
the charge on basketball regulation I understand?
    Ms. Chinn. No, no, no.
    Chairman Tipton. Mr. Schescke, I have here a letter from 
some of my local county commissioners in my district out of 
Delta County. In the second sentence of the letter it states 
skills learned by youths working on farms and in livestock 
production programs such as FFA and 4-H and teens on farm 
programs instill a lifelong ethic towards safety that is 
unparalleled by other education efforts.'' Would you agree with 
that statement?
    Mr. Schescke. I would. And I think the idea that students 
learn best in context. You can teach students about safety but 
when they see the real life application of that, I think that 
is where the opportunity to not only combine what we do in a 
classroom but then follow that right up with the ability for 
students to work in that environment and see the application. 
So many of the problems we have in our education system today 
is that kids learn something but they do not immediately see 
the connection or the context to it. And I think that the 
ability for our students to have this experiential learning and 
to work in agriculture, it brings into that context of yes, 
there are safety issues and things that they have to be aware 
of but the more they are educated on them, a lot of concerns I 
have heard come from one of our teachers is that if these rules 
were to go forward and our students really would not have the 
opportunity to be involved in experiential learning, then why 
would the unintended consequences may be actually a decreased 
amount of time in the instruction program on safety. As was 
noted, you know, to completely comply with what is proposed you 
would eat up over half of the year just teaching safety. There 
has to be a reasonable part of that. Safety is important and it 
should be not necessarily half a year but it really needs to be 
infused all the way through the instructional program so 
students are learning about livestock, they learn about safety. 
If they are learning about equipment, they are learning about 
safety. If they are learning about crops, they are learning 
about the safety aspects of that at the same time.
    Chairman Tipton. You know I am a country boy so when you 
are saying experiential learning, learning by doing is 
essentially what you are really talking about. Are you as 
concerned as I am about the provisions and the proposed rule 
that would prevent future generations from learning important 
skills--how to handle the hogs, techniques critical to farming 
as a result of DOL's hands-off approach?
    Mr. Schescke. I am. And part of it is that, you know, the 
comments made does not affect it but it does because of the 
limiting of the student exemption to only the first two HOs. 
Imagine how difficult it would be to emplace a student in a 
work situation, employment situation working on a farm where 
the list of things that they could not do was longer than the 
list they could do. And so that is where I think we would like 
to see if they do go forward with this many HOs that that 
student learner cover as many of them that are it really makes 
sense to because, you know, how many employers are going to 
hire those student learners when they know that technically by 
the DOL standard 12 of the things are on the list they cannot 
do. Only two are allowed and that is a pretty narrow scope in 
terms of the opportunities for the students to learn 
experientially.
    Chairman Tipton. Thank you.
    Mr. Ebert, a common comment we hear from stakeholders is 
typically a lack of a neutral outreach by federal agencies. 
What should DOL do that will better inform or better yet make 
you a partner in this rulemaking process?
    Mr. Ebert. It is my understanding in the state we actually 
have a rule safety board and agency but it has not been funded. 
So how is an agency that has not been funded able to reach out 
to the community and help them with safety? I think it would be 
in DOL's best interest to work along those lines instead of 
imposing more rules on our farming community.
    Chairman Tipton. Okay, thanks. You know, if you were 
prohibited from working on your family's farm as a youth do you 
think that you would be as involved or involved at all in 
production today?
    Mr. Ebert. No, not at all. I just would not have the 
experience and develop the love of the farm aspect and the 
animals and the industry.
    Chairman Tipton. Learn by doing.
    Mr. Ebert. Right.
    Chairman Tipton. Great. Thanks so much. I would like to 
yield to Ranking Member Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    I think my most important question is for Ms. Chin. So your 
daughter had her hip pulled out doing a layup?
    Ms. Chinn. Yeah, she did.
    Mr. Critz. What kind of basketball do they play in your 
neighborhood?
    Ms. Chinn. Middle school basketball is very rough for girls 
I can tell you.
    Mr. Critz. I was not allowed to play basketball because I 
played it like football, but it sounds like that would work 
well.
    Ms. Chinn. We need helmets and pads.
    Mr. Critz. Mr. Schescke, I think you mentioned that two-
thirds of the FFA students are non-farming community students?
    Mr. Schescke. Roughly two-thirds of the students we serve 
today come from non-farm backgrounds. Meaning only a third of 
our students today fall in this category of having grown up on 
a family farm. This two-thirds is roughly divided between the 
students that we would consider rural non-farm, meaning 
students who live in those rural areas and those are the 
students that are probably most affected by some of this 
because their opportunity for that experiential learning is 
often working for farmers in that community in some kind of 
wage earning place that is part of this SAE, supervised 
agriculture experience program.
    But also we have today roughly a third of our students who 
come from suburban and urban neighborhoods because the idea of 
agriculture in its broadest sense is not limited to just rural 
areas. Finding young people today, even in a suburban area, our 
largest programs in the country are actually in places like 
Chicago and Philadelphia. And it actually provides a lot of 
growth opportunity for our programs.
    Mr. Critz. Thanks. I think we would all probably agree that 
working on a farm is hard work. When you have hard work, 
sometimes accidents will happen; I think that is just a natural 
progression. I was thinking about this--about defining where 
young people can work, whether it is a family farm or not a 
family farm and defining, of course, what a family farm is--
obviously over time the procedures that you use in your 
operations and the equipment that you use changes. It seems to 
me that you would have training to make sure that the folks on 
your farm understand the new dangers, so to speak. It seems 
like DOL's purpose might be served better at the front end, not 
at the back end. I would open up to everyone for comment, if 
you just want to go from my right to left, because I would be 
curious what you do when you get that new piece of equipment or 
the new technique that you have to adjust; not only do your 
children have to know what the new processes are, but everyone 
up the chain as well. So, please.
    Ms. Chinn. Right. Any time we get a new piece of equipment 
on our farm there is a training period. Nobody is allowed to 
use it until they have gone through the training period with 
it, they understand it, they are fully comfortable with the 
rules and the safety procedures that go along with that. The 
same holds true for our children. Any time that we feel like 
they are ready to move on to the next step they do not get to 
do it without hearing the proper safety guidelines to using 
that piece of equipment or to being around that older animal. 
We would never turn somebody loose without that proper 
training. It is not common sense. We do not want somebody to 
get hurt. We do not have time for somebody to get hurt.
    Mr. Schescke. I would like to comment. This is an important 
issue because from our standpoint the classroom instruction, 
our teachers are always in need of and looking for resources to 
better teach safety. And the idea of how do you have 
appropriate safety assessments. And we do pretty well for all 
the equipment. They are contained in a school and that is 
pretty much a given. When we go out into the workplace 
situations, that is where the teacher has to work with that 
farmer or the person who is employing that student and make 
sure that the student in that training agreement covers that.
    It was mentioned in the earlier panel that this is 
something DOL is interested in. In fact, we would welcome that 
from an educational standpoint. I mean, sure, if there are 
resources that at DOL and maybe resources at USDA to make sure 
that for students who are in these situations that we are 
providing the best education and that we have the assessments 
in place to make sure that those students are qualified. Our 
teachers are striving to do the best they can with the 
resources that they have. And what the gentleman at the end of 
the table described is happening at a lot of our schools. You 
know, programs are under a lot of financial constraints and 
they are having to do more with less. So any assistance rather 
versus regulation that could be given would be probably well 
received and appreciated.
    Mr. Tabb. Thank you. And the one thing in my context is a 
farm is actually an outdoor classroom and laboratory. And that 
is where they can get the hands-on experience through the 
vocational programs at the schools. But I will go back to these 
statistics again. You know, for the injury, per 1,000 farms, in 
1998 on the farms were 16.6 per thousand. And in 2009, it was 
down to 16.8. That drop of 59 percent, if playing high school 
sports was an occupation then for every 1,000 players that you 
would have less than 1 percent injured during a year, I think 
not. Just because they are being compensated for something to 
do and a lot of kids love to do sports. In fact, they are 
encouraged to do sports. Physical activity is actually supposed 
to be good for you. And being on a farm in that environment, 
doing the physical activity, you do sometimes get hurt. I think 
if you look at it statistically it is a lot safer than playing 
organized sports.
    Like I say, I was an EMT. I was a volunteer EMT in my 
community for 18 years, a lifetime member of the fire 
department, and I have been thinking about this for a couple 
weeks. In the 18 years that I was a certified EMT--I was not 
just the driver but I was a certified EMT for the back of that 
ambulance--I cannot still think of one instance, and I am glad, 
of either a fatality or a serious injury involving a farm youth 
worker. On a regular basis on Friday nights I went on the 
ambulance to the high school football team games on standby and 
very seldom we ever left there without transporting somebody to 
the hospital. You know, people get hurt, but I think this just 
has gone totally overboard and I think if they do a little bit 
of compared to what--if farming is the only thing you can 
compare it to, yes, it is going to be the most dangerous but it 
will also be the safest. But I think just looking at organized 
sports.
    And with that they are making improvements. They are doing 
new head protection. And agriculture is doing the same thing. 
As a kid growing up, for me probably the biggest single 
improvement in agriculture that I have seen in my lifetime was 
slip shafts on power takeoffs. That was probably the most 
dangerous thing on a farm. When that thing started spinning, 
you know, all it took was a thread to get into that and you 
could just be wrapped up in that thing in a heartbeat. But all 
the technology that has come along, you know, over the last 
years, it is phenomenal.
    And I am proud to be a farmer. I am not ashamed to be a 
farmer. So thank you.
    Mr. Critz. Rick.
    Mr. Ebert. I will sort of add on to his. You know, I can 
remember when I started working with my dad. The older 
machinery they had. The power takeoffs were open, you know, 
nothing was covered, belts and everything did not have shields 
on where today's modern machinery does. A lot of stuff has 
quick shutoffs, all that. And I have always taught my kids. I 
always matched my kid to the ability of what he could do and 
the task at hand. And I always stressed and they always learned 
if you are working with a piece of equipment and something goes 
wrong, the first thing you do is shut the whole thing down. Do 
not risk losing an arm, a finger, even life. And I think that 
is what farmers do today. They realize that farming is highly 
mechanized and highly computerized but there is still a lot of 
danger out there and there are things that we teach them for 
their safety and our safety for our children.
    Mr. Critz. Well, and that is really the point we are 
talking about is that as Mr. Bartlett said earlier, many times 
regulations and the government comes in because the person or 
the constituent or the consumer does not have the mental 
wherewithal without our help. And many times, because things 
can be inherently dangerous, I mean, there is danger involved 
with farming and, there is obviously health and welfare, health 
and safety that have to be taken into account. But the point I 
was trying to make is that the farmer is doing exactly what the 
government wants, what anybody would want. And when it comes 
down to your own family, I think sometimes we push our own 
families a little harder than we might other families. But 
still, the safety of that individual is paramount.
    One of the things that struck me regarding farming, as I 
delve more and more into the subject, is the current education 
level of farmers; I mean, the number of people in the farming 
community now with bachelor's degrees from college. The 
government saying maybe they are not educated, maybe they do 
not know so we have to help, is even further from the truth.
    I really appreciate your testimony. Obviously the point is 
that we do a very good job of one size fits all. This is one 
place where maybe the previous size fit well, and if it is not 
broken, let us not fix it. So with that, Mr. Chairman, I yield 
back.
    Chairman Tipton. Thank you. Mr. King.
    Mr. King. Thanks, Mr. Chairman.
    I want to thank all the witnesses. I do not know when I 
have listened to a whole panel of witnesses and agreed with 
very one of you. I appreciate the background experience you 
bring to this and the comments.
    First, I think, Mr. Tabb, your comment about put the 
grandparents in charge, that really hits home. For some reason 
the reproduction part is out of our control and we realize how 
precious these kids are, especially when they are 
grandchildren. And not to diminish being a parent; I am both.
    I appreciate your comments also, Ms. Chinn, and I wanted to 
say to you that your oral testimony was even better than your 
written testimony and I would suggest the congressional record 
of your testimony be very useful to put in a farm magazine and 
I would like to see that read in the urban areas if there is a 
way that we can advocate that through FFA or anywhere else 
because that picks up the flavor of this and the sense of what 
the way of life is like.
    And I also, the comments about the inspector does not know 
to get out of the way but the kids do, yes, that is simple 
common sense. It transcends species. And if you have ever tried 
to herd confinement hogs on dirt you know that. If you have 
ever taken a kennel raised, field trial champion birddog out to 
the actual field and realized that that dog does not know how 
to get across the creek or through the fence, kids are the same 
way. If they grow up on the farm they learn these things 
incrementally. The best safety you can have is you watch those 
kids and you see what they know. You know where their weakness 
are. You know where the dangers are and you are constantly 
there to make sure they avoid the dangers, including none of 
our little kids got near the limited-fed sows during gestation. 
That would be the most dangerous thing I can actually think of 
and horrifying included.
    The statement that you testified, Mr. Tabb, I just looked 
it up here because the language struck home with me. Where the 
temperature is at which they are working exceed or drop below a 
certain temperature, factoring in such things as humidity, wind 
velocity, and the degree and duration of the physical exertion 
required by the work, da-da, in direct sun be limited, the 
temperature reaches certain thresholds for prolonged periods of 
time.
    I just have to tell you that Marilyn and I raised three 
sons and they are grown now in their 30s. The oldest one sat 
down with me a couple of years ago and he said, ``Dad, do you 
remember when you had us all working when it was 126 degrees 
heat index?'' I said, ``Yeah, I do actually. That was an 
unusual day but we had the forms set and we had to pour 
concrete and we made money.'' He said, ``That is what you said, 
Dad. You said `We made money.' But do you remember two days in 
a row when we were out driving sheet piling across the swamp 
when it was 60 below wind chill?'' I said, ``Yeah, I do 
remember that, too, because we did not have to mat the dragline 
and we made money.'' He said, ``That is what you said, Dad. But 
what I wanted to tell you is that, you know, that is 186 
degrees temperature range between 60 below and 126 above and no 
species other than your sons would survive such an ordeal.''
    But, you know, all three of those sons, they are grown up 
and they all work. They enjoy work. And work is an honorable 
thing. And the life that we have in rural America is among the 
most honorable that we have. And when it is threatened I am 
concerned about it and it comes to me in a lot the same way it 
does Danny Rehberg and many others that have had the benefits 
of living in this way.
    I just think that it is a mistake for us to even think 
about--I guess they would say raising the standards; I would 
say lowering the standards--for youth to work because the work 
ethic and the way of life is so valuable. And I trust that we 
should have and the people that are the parents, the 
grandparents, the neighbors, the relation, and the mentors for 
these children should be adequate. I trust them and I trust the 
parents to make the judgment as to who they will trust their 
children's safety to.
    And I would pose this question. Should we instead of adding 
regulation to agriculture, should we instead lift some of the 
regulations for nonfarm work for our youth so that they could 
learn a work ethic in the neighboring business. And should we 
allow parents to sign a waiver so that they could allow their 
children to go to work in a neighboring business with somebody 
that they trust rather than having more regulation tying this 
down and eventually choke off our work ethic, it would be 
better to allow that opportunity for many other children, aside 
and in addition to agriculture. And I start with Ms. Chinn.
    Ms. Chinn. I think that would be a great idea. Our local 
newspaper in our town would love to be training young kids to 
just stuff papers. But he cannot because of the labor rules. He 
cannot hire a 13-year-old kid to come in and stuff inserts into 
his newspaper. But what a great thing for a child to learn, the 
value of hard work, that when I work hard at something I am 
going to get paid for it. And then I can have that pride of 
ownership in that newspaper when it gets delivered into mom and 
dad's mailbox the next day.
    These are things that our kids are not being allowed to do 
today. They are not learning this at a young age. But they all 
know how to play a video game real good. How does that benefit 
everybody in life? What these kid learn in a job, they are 
going to take with them as they grow older. And we are going to 
have a great workforce and we are going to have kids that know 
responsibility and the value of hard work. And that it does not 
matter how big that obstacle is, if you set your mind to it you 
can achieve anything.
    Thank you.
    Mr. King. Thank you. Mr. Schescke.
    Mr. Schescke. Agriculture education is one of the few 
career and technical education programs that allows students to 
really get involved and engaged as early as middle school and 
junior high. In fact, most of the current technical education 
programs remaining outside of agriculture are really only 
limited to students in their junior and senior year in high 
school. And the advantage is that it is much easier under 
current regulations to make sure those students have that 
experiential learning. In fact, I would say that a lot of 
those--the part of the whole career technical education model 
that they struggled with the most is providing students the 
relevant experiential learning, learning by doing. Often they 
are creating that within the classroom.
    But in our case, you know, the farm as it was alluded to by 
Mr. Tabb and others, is an opportunity to extend that learning 
environment out into the community and kids to get real life 
learning experience so they can actually save money. It helps 
them go on to college or do other things. It helps advance her 
career. And I think that is another part of this whole 
financial literacy piece.
    Back to your comment about one of the inherited advantages 
young people in the rural America have is that because they 
have the opportunity to work in those situations and earn 
money, they become probably more financially literate and 
responsible with their funds than do their counterparts who 
have never had that experience.
    Mr. King. Thank you. Mr. Tabb.
    Mr. Tabb. Absolutely. You know, urban youth should be 
afforded the same opportunities that rural youth have. And 
since we do not have many urban farms, a little bit of 
container growing here and there. But growing upon a farm and 
working, I had five siblings. There were six of us kids. And 
one Sunday morning a lady came up to my dad and said, ``Mr. 
Tabb,'' said, ``your children are so well behaved in church I 
would like my son to sit with you one Sunday.'' And he said, 
``That is fine.'' And he said, ``I would like to have him by 
Friday but Saturday morning at the very latest.''
    We did not have time to get in trouble. We were taught that 
work ethic at a young age. In fact, if you want to do something 
mandatory, put a work ethics requirement in anybody that 
graduates from high school. I think you would find that would 
be a real good part to a well rounded education. But allowing 
young people, whether they are in the country or in an urban 
area, to actually be able to learn something, learn a trade, 
learn how to change oil in a vehicle or how to properly measure 
something, even put it together. Because I have been a 
tremendous proponent of vocational education. A lot of kids who 
are at risk, cannot see a reason to stay in school, if they can 
see practical application they will stay in school. If they can 
learn how to read calipers to be an auto mechanic or to figure 
how many cubic yards of concrete it is going to take for that 
footer of foundation, it is amazing how you can keep these kids 
involved. But if you have got to make them wait until they are 
beyond that threshold to have the curiosity to want to learn, 
you are starting to lose a lot of them.
    Mr. King. Thank you. Mr. Ebert.
    Mr. Ebert. I think we need to back off on some of those 
regulations because I think kids today have so much opportunity 
to get involved in work-related activities and opportunities. 
Why do we want to stifle them? Let them start early. They are 
going to grow so much more and make America greater than what 
it is now by giving them that opportunity.
    Mr. King. And just briefly in closing to support a 
statement, I just added up the times that we have been to the 
emergency room. We have had two knee surgeries and a broke 
femur and none of them had to do with any of the work that 
those young men did. It all had to do with sports or 
recreational.
    Thank you very much all of you witnesses. And I appreciate 
especially the statements made in conclusion here. And I yield 
back to the chairman. Thank you.
    Chairman Tipton. Thank you, Congressman King.
    I appreciate the panel taking the time to be here. Mr. 
Ebert, I think you had a nice summation about the greatness of 
America. And we find it in the traditions of our agricultural 
community. And I certainly appreciate Ms. Chinn also, your 
notification. I think government maybe needs to hear that moms 
and dads, grandmas and grandpas, do not need government to tell 
them how to love their children and how to be able to protect 
them, that we see that caring here.
    So I would like to thank all the witnesses for taking time 
out of their busy schedules for appearing today. You have all 
provided us with some great insights on how decisions made in 
Washington are affecting small businesses across our country, 
most in particular our ag community. I would also like to 
remind the Department of Labor as they make these decisions 
that 98 percent of the domestic farms are defined as family 
farms and that 96.7 percent of these are defined as small 
businesses. Small businesses are the greatest job creator and 
are responsible for on average 7 out of every 10 new jobs in 
our country.
    It is my hope today that the Department of Labor will 
consider all the comments made here today when deciding whether 
or not to move forward with the NPRM or certain provisions 
within that NPRM . I think we can all agree that the safety of 
our youth should be of foremost concern and the initial purpose 
behind the proposed rule may have well been well intentioned, I 
would like to reiterate that I believe that as the majority of 
American farmers do, that this rule all together should have 
never been proposed. The rule as offered would change 
longstanding and proven programs that provide training to young 
people who are interested in pursuing careers in agriculture. 
This is bad for agricultural small businesses and it is bad for 
the future of our nation's farming needs. I would like to 
recommend to the DOL to reconsider that rule in its entirety.
    I ask unanimous consent that members have five legislative 
days to be able to submit statements and supporting materials 
for the record. Without objection so ordered. And this hearing 
is now adjourned. Again, thank you.
    [Whereupon, at 12:22 p.m., the Subcommittee hearing was 
adjourned.]

[GRAPHIC] [TIFF OMITTED] T6459A.001

[GRAPHIC] [TIFF OMITTED] T6459A.002

[GRAPHIC] [TIFF OMITTED] T6459A.003

[GRAPHIC] [TIFF OMITTED] T6459A.004

[GRAPHIC] [TIFF OMITTED] T6459A.005

[GRAPHIC] [TIFF OMITTED] T6459A.006

[GRAPHIC] [TIFF OMITTED] T6459A.007

[GRAPHIC] [TIFF OMITTED] T6459A.008

[GRAPHIC] [TIFF OMITTED] T6459A.009

[GRAPHIC] [TIFF OMITTED] T6459A.010

[GRAPHIC] [TIFF OMITTED] T6459A.011

[GRAPHIC] [TIFF OMITTED] T6459A.012

[GRAPHIC] [TIFF OMITTED] T6459A.013

[GRAPHIC] [TIFF OMITTED] T6459A.014

[GRAPHIC] [TIFF OMITTED] T6459A.015

[GRAPHIC] [TIFF OMITTED] T6459A.016

[GRAPHIC] [TIFF OMITTED] T6459A.017

[GRAPHIC] [TIFF OMITTED] T6459A.018

[GRAPHIC] [TIFF OMITTED] T6459A.019

[GRAPHIC] [TIFF OMITTED] T6459A.020

[GRAPHIC] [TIFF OMITTED] T6459A.021

[GRAPHIC] [TIFF OMITTED] T6459A.022

[GRAPHIC] [TIFF OMITTED] T6459A.023

[GRAPHIC] [TIFF OMITTED] T6459A.024

[GRAPHIC] [TIFF OMITTED] T6459A.025

[GRAPHIC] [TIFF OMITTED] T6459A.026

[GRAPHIC] [TIFF OMITTED] T6459A.027

[GRAPHIC] [TIFF OMITTED] T6459A.028

[GRAPHIC] [TIFF OMITTED] T6459A.029

[GRAPHIC] [TIFF OMITTED] T6459A.030

[GRAPHIC] [TIFF OMITTED] T6459A.031

[GRAPHIC] [TIFF OMITTED] T6459A.032

[GRAPHIC] [TIFF OMITTED] T6459A.033

[GRAPHIC] [TIFF OMITTED] T6459A.034

[GRAPHIC] [TIFF OMITTED] T6459A.035

[GRAPHIC] [TIFF OMITTED] T6459A.036

[GRAPHIC] [TIFF OMITTED] T6459A.037

[GRAPHIC] [TIFF OMITTED] T6459A.038

[GRAPHIC] [TIFF OMITTED] T6459A.039

[GRAPHIC] [TIFF OMITTED] T6459A.040

[GRAPHIC] [TIFF OMITTED] T6459A.041

[GRAPHIC] [TIFF OMITTED] T6459A.042

[GRAPHIC] [TIFF OMITTED] T6459A.043

[GRAPHIC] [TIFF OMITTED] T6459A.044

[GRAPHIC] [TIFF OMITTED] T6459A.045

[GRAPHIC] [TIFF OMITTED] T6459A.046

[GRAPHIC] [TIFF OMITTED] T6459A.047

[GRAPHIC] [TIFF OMITTED] T6459A.048

[GRAPHIC] [TIFF OMITTED] T6459A.049

[GRAPHIC] [TIFF OMITTED] T6459A.050

[GRAPHIC] [TIFF OMITTED] T6459A.051

[GRAPHIC] [TIFF OMITTED] T6459A.052

[GRAPHIC] [TIFF OMITTED] T6459A.053

[GRAPHIC] [TIFF OMITTED] T6459A.054

[GRAPHIC] [TIFF OMITTED] T6459A.055

[GRAPHIC] [TIFF OMITTED] T6459A.056

[GRAPHIC] [TIFF OMITTED] T6459A.057

[GRAPHIC] [TIFF OMITTED] T6459A.058

[GRAPHIC] [TIFF OMITTED] T6459A.059

[GRAPHIC] [TIFF OMITTED] T6459A.060

[GRAPHIC] [TIFF OMITTED] T6459A.061

[GRAPHIC] [TIFF OMITTED] T6459A.062

[GRAPHIC] [TIFF OMITTED] T6459A.063

[GRAPHIC] [TIFF OMITTED] T6459A.064

[GRAPHIC] [TIFF OMITTED] T6459A.065

[GRAPHIC] [TIFF OMITTED] T6459A.066

[GRAPHIC] [TIFF OMITTED] T6459A.067

[GRAPHIC] [TIFF OMITTED] T6459A.068

[GRAPHIC] [TIFF OMITTED] T6459A.069

[GRAPHIC] [TIFF OMITTED] T6459A.070

[GRAPHIC] [TIFF OMITTED] T6459A.071

[GRAPHIC] [TIFF OMITTED] T6459A.072

[GRAPHIC] [TIFF OMITTED] T6459A.073

[GRAPHIC] [TIFF OMITTED] T6459A.074

[GRAPHIC] [TIFF OMITTED] T6459A.075

[GRAPHIC] [TIFF OMITTED] T6459A.076

[GRAPHIC] [TIFF OMITTED] T6459A.077

[GRAPHIC] [TIFF OMITTED] T6459A.078

[GRAPHIC] [TIFF OMITTED] T6459A.079

[GRAPHIC] [TIFF OMITTED] T6459A.080

[GRAPHIC] [TIFF OMITTED] T6459A.081

[GRAPHIC] [TIFF OMITTED] T6459A.082

[GRAPHIC] [TIFF OMITTED] T6459A.083

[GRAPHIC] [TIFF OMITTED] T6459A.084

[GRAPHIC] [TIFF OMITTED] T6459A.085

[GRAPHIC] [TIFF OMITTED] T6459A.086

[GRAPHIC] [TIFF OMITTED] T6459A.087

[GRAPHIC] [TIFF OMITTED] T6459A.088

[GRAPHIC] [TIFF OMITTED] T6459A.089

[GRAPHIC] [TIFF OMITTED] T6459A.090

[GRAPHIC] [TIFF OMITTED] T6459A.091

[GRAPHIC] [TIFF OMITTED] T6459A.092

[GRAPHIC] [TIFF OMITTED] T6459A.093

[GRAPHIC] [TIFF OMITTED] T6459A.094

[GRAPHIC] [TIFF OMITTED] T6459A.095

[GRAPHIC] [TIFF OMITTED] T6459A.096

[GRAPHIC] [TIFF OMITTED] T6459A.097

[GRAPHIC] [TIFF OMITTED] T6459A.098

[GRAPHIC] [TIFF OMITTED] T6459A.099

[GRAPHIC] [TIFF OMITTED] T6459A.100

[GRAPHIC] [TIFF OMITTED] T6459A.101

[GRAPHIC] [TIFF OMITTED] T6459A.102

[GRAPHIC] [TIFF OMITTED] T6459A.103

[GRAPHIC] [TIFF OMITTED] T6459A.104

[GRAPHIC] [TIFF OMITTED] T6459A.105

[GRAPHIC] [TIFF OMITTED] T6459A.106

[GRAPHIC] [TIFF OMITTED] T6459A.107

[GRAPHIC] [TIFF OMITTED] T6459A.108

[GRAPHIC] [TIFF OMITTED] T6459A.109

[GRAPHIC] [TIFF OMITTED] T6459A.110

[GRAPHIC] [TIFF OMITTED] T6459A.111

[GRAPHIC] [TIFF OMITTED] T6459A.112

[GRAPHIC] [TIFF OMITTED] T6459A.113

[GRAPHIC] [TIFF OMITTED] T6459A.114


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
